<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]




 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2019

                              ----------                              


                        WEDNESDAY, MAY 16, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:31 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Jerry Moran (Chairman) presiding.
    Present: Senators Moran, Murkowski, Collins, Boozman, 
Capito, Lankford, Shaheen, Leahy, Feinstein, Coons, and Van 
Hollen.

                    FEDERAL BUREAU OF INVESTIGATION

STATEMENT OF HON. CHRISTOPHER A. WRAY, DIRECTOR

                OPENING STATEMENT OF SENATOR JERRY MORAN

    Senator Moran. As soon as I can see you, Director, I will 
call the Subcommittee on Commerce, Justice, and Science, and 
Related Agencies to come to order.
    We have logistical issues today, in which there are votes 
called at 3 o'clock. I think there are two votes. Our hearing 
was intended and will be a two-part set of hearings, this one 
in public, and then we will convene to the Sensitive 
Compartmented Information Facility (SCIF) in the Visitors 
Center in the United States Capitol for a more classified 
briefing. We intend to do that.
    Senator Shaheen and I have generally agreed to forgo our 
opening statements. I will hold Members, Senator Feinstein is 
the only one here to hear this, but I will do everything I can, 
including with Senator Leahy, to restrict everyone to their 5 
minutes, and I will use the gavel to accomplish that.
    I will also attempt to call the hearing to reconvene in the 
SCIF following the second vote of a two-vote series, so we will 
try to get started as early as we can there. In that setting, 
we will work hard to give everybody an opportunity to pursue 
things that maybe they did not get to pursue here.
    Let me just say, as my opening statement, Director, it is 
an honor to have you here in front of us. It has been a 
pleasure to get to know you. I express my gratitude to you and 
the people who work at the FBI and other agencies related to 
our national security and combating crime and terrorism. I am 
very grateful for their service to our Nation and the efforts 
that are so often successful in protecting us from lots of harm 
in the lives of American citizens, so I am grateful for the 
service of you and the FBI that you serve.
    Senator Shaheen is forgoing her opening statement.
    Director Wray, we would call upon you for your testimony.

             SUMMARY STATEMENT OF HON. CHRISTOPHER A. WRAY

    Director Wray. Thank you, Mr. Chairman, Ranking Member 
Moran, and Members of the subcommittee. I am honored to be here 
representing the men and women of the FBI. Our employees, as 
the subcommittee knows, are spread across more than 350 
locations all around the country, in 90 offices around the 
world, and in 34 headquarters divisions.
    What strikes me the most in coming back to working with the 
organization every day after a hiatus is the people--people 
tackling their jobs with strength and honesty and 
professionalism; people committed to doing the right thing in 
the right way; people fiercely committed to protecting the 
American people from terrorists and criminals and spies; and 
people following the facts independently no matter where they 
lead and no matter who likes it.
    Our people, nearly 37,000 of them, are the heart of the 
FBI. Through their sense of duty and commitment, our employees 
embody our core values and our motto of fidelity, bravery, and 
integrity.
    So I want to thank you for the funding you have provided us 
in 2018. Without it, we would not be able to do all that great 
work.
    In the interest of the subcommittee's time, I have 
shortened what I was going say here at the beginning and 
included a lot more details about our budget request in my 
written statement for the record. I am also happy to address 
questions about our budget here today, in addition to questions 
about threats we face and the FBI's critical capabilities.
    This subcommittee has always been tremendously supportive 
of the Bureau and giving us the resources that we need. I look 
forward to discussing how we can maintain our capabilities 
through the resource investments provided by the fiscal year 
2018 budget, as enacted, and how we can build on that momentum 
going forward. In particular, I hope to be able to discuss the 
threats we face on the FBI's critical capabilities. We have a 
lot of things on our plate, and some of the key priorities, 
obviously, are counterterrorism, counterintelligence, cyber 
threats, transnational organized crime, violent crime, the 
opioid epidemic, and child predators. That is just at the top 
of the list.
    The threats are of grave importance to our security. We 
want the American people to be able to focus on just living 
their lives while we focus on keeping them safe. I am 
incredibly proud of the FBI's work, but we cannot afford to be 
complacent. We have to keep pace with technology in all those 
areas that I listed and seek out new, innovative solutions to 
the problems we face. Because if we do not do that, our 
adversaries are not going to wait around on us--and we must 
keep pace with them.
    We cannot do any of that without your support and without 
the resources that you provide. As always, we are committed to 
being good stewards of those funds.
    Thank you for having me here today, and I look forward to 
answering your questions.
    [The statement follows:]
             Prepared Statement of Hon. Christopher A. Wray
    Good afternoon Chairman Moran, Ranking Member Shaheen, and Members 
of the subcommittee.
    Thank you for allowing me to appear before you today. The Federal 
Bureau of Investigation (FBI) especially thanks this Committee for its 
support of the men and women of the FBI in the fiscal year 2018 
appropriation. As the Committee is aware, FBI personnel are the 
lifeforce of the organization--they work tirelessly to combat some of 
the most complex and serious national security threats and crime 
problems challenging the Nation's intelligence and law enforcement 
communities. The funding you provided is imperative in allowing the FBI 
to retain these precious assets--our personnel--as well as address 
these considerable threats.
    Today, I appear before you on behalf of these men and women who 
tackle these threats and challenges every day. I am extremely proud of 
their service and commitment to the FBI's mission and to ensuring the 
safety and security of communities throughout our Nation. On their 
behalf, I would like to express my appreciation for the support you 
have given them in the past, ask for your continued support in the 
future, and pledge to be the best possible stewards of the resources 
you provide.
    I would like to begin by providing a brief overview of the FBI's 
fiscal year 2019 budget request, and then follow with a short 
discussion of key threats and challenges that we face, both as a Nation 
and as an organization.
                fiscal year 2019 budget request overview
    The fiscal year 2019 budget request proposes a total of $8.92 
billion in direct budget authority to carry out the FBI's national 
security, criminal law enforcement, and criminal justice services 
missions. The request includes a total of $8.87 billion for Salaries 
and Expenses, which will support 34,694 positions (12,927 Special 
Agents, 3,055 Intelligence Analysts, and 18,712 professional staff), 
and $51.9 million for Construction.
    As a result of this budget being formulated before the Bipartisan 
Budget Act of 2018, it was built utilizing the prior year enacted level 
as a starting point. Accordingly, this request sustains prior year 
personnel and operational funding, but provides no discrete program 
enhancements. The request also includes a cancellation of $148 million 
from Criminal Justice Information Services (CJIS) automation fund 
available surcharge balances.
    When compared against the fiscal year 2018 Omnibus enacted level, 
the fiscal year 2019 request level represents a total decrease of $476 
million, including a $318 million reduction in the FBI's Construction 
account funding for one-time projects, and a $158 million reduction to 
the Salaries and Expenses account.
                       key threats and challenges
    This Committee has provided critical resources for the FBI to 
become what it is today--a threat-focused, intelligence-driven 
organization. Our Nation continues to face a multitude of serious and 
evolving threats ranging from homegrown violent extremists to hostile 
foreign intelligence services and operatives; from sophisticated cyber-
based attacks to Internet facilitated sexual exploitation of children; 
from violent gangs and criminal organizations to public corruption and 
corporate fraud. Keeping pace with these threats is a significant 
challenge for the FBI. As an organization, we must be able to stay 
current with constantly changing and new technologies that make our 
jobs both easier and harder. Our adversaries--terrorists, foreign 
intelligence services, and criminals--take advantage of modern 
technology, including the Internet and social media, to facilitate 
illegal activities, recruit followers, encourage terrorist attacks and 
other illicit actions, and to disperse information on building 
improvised explosive devices and other means to attack the United 
States. The breadth of these threats and challenges are as complex as 
any time in our history. And the consequences of not responding to and 
countering threats and challenges have never been greater.
    The support of this Committee in helping the FBI to do its part in 
facing and thwarting these threats and challenges is greatly 
appreciated. That support is allowing us to establish strong 
capabilities and capacities for assessing threats, sharing 
intelligence, leveraging key technologies, and--in some respects, most 
importantly--hiring some of the best to serve as Special Agents, 
Intelligence Analysts, and professional staff. We have built and are 
continuously enhancing a workforce that possesses the skills and 
knowledge to deal with the complex threats and challenges we face 
today--and tomorrow. We are building a leadership cadre that views 
change and transformation as a positive tool for keeping the FBI 
focused on the key threats facing our Nation.
    Today's FBI is a national security and law enforcement organization 
that uses, collects, and shares intelligence in everything we do. Each 
FBI employee understands that to defeat the key threats facing our 
Nation, we must constantly strive to be more efficient and more 
effective. Just as our adversaries continue to evolve, so, too, must 
the FBI. We live in a time of acute and persistent terrorist and 
criminal threats to our national security, our economy, and our 
communities. These diverse threats underscore the complexity and 
breadth of the FBI's mission: to protect the American people and uphold 
the Constitution of the United States.
                           national security
Counterterrorism
    Preventing terrorist attacks remains the FBI's top priority. The 
terrorist threat against the United States remains persistent and 
acute.
    From a threat perspective, we are concerned with three areas in 
particular: (1) those who are inspired by terrorist propaganda and feel 
empowered to act out in support; (2) those who are enabled to act after 
gaining inspiration from extremist propaganda and communicating with 
members of foreign terrorist organizations who provide guidance on 
operational planning or targets; and (3) those who are directed by 
members of foreign terrorist organizations to commit specific, directed 
acts in support of the group's ideology or cause. Prospective 
terrorists can fall into any of the above categories or span the 
spectrum, but in the end the result is the same--innocent men, women, 
and children killed and families, friends, and whole communities left 
to struggle in the aftermath.
    Currently, the FBI views the Islamic State of Iraq and Syria (ISIS) 
and homegrown violent extremists as the main terrorism threats to the 
United States. ISIS is relentless and ruthless in its campaign of 
violence and has aggressively promoted its hateful message, attracting 
like-minded violent extremists. The threats posed by ISIS foreign 
terrorist fighters, including those recruited from the U.S., are 
extremely dynamic. These threats remain the highest priority and create 
the most serious challenges for the FBI, the U.S. intelligence 
community, and our foreign, Federal, State, and local partners. We 
continue to identify individuals who seek to join the ranks of foreign 
fighters traveling in support of ISIS, as well as homegrown violent 
extremists who may aspire to attack the United States from within. In 
addition, in a manner consistent with the First Amendment, we are 
working to expose, refute, and combat terrorist propaganda and training 
available via the Internet and social media networks. Due to online 
recruitment and indoctrination, foreign terrorist organizations are no 
longer solely dependent on finding ways to get terrorist operatives 
into the United States to recruit and carry out acts. Terrorists in 
ungoverned spaces--both physical and cyber--readily disseminate 
propaganda and training materials to attract easily influenced 
individuals around the world to their cause. They encourage these 
individuals to travel, or they motivate them to act at home. This is a 
significant transformation from the terrorist threat our Nation faced a 
decade ago.
    ISIS was able to construct a narrative that touched on many facets 
of life, from career opportunities to family life to a sense of 
community. Those messages were not tailored solely for those who are 
expressing signs of radicalization to violence--many who click through 
the Internet every day, receive social media push notifications, and 
participate in social networks have viewed ISIS propaganda. Ultimately, 
a lot of the individuals drawn to ISIS seek a sense of belonging. 
Echoing other terrorist groups, ISIS has advocated for lone offender 
attacks in Western countries. ISIS videos and propaganda have 
specifically advocated for attacks against soldiers, law enforcement, 
and intelligence community personnel, but have branched out to include 
any civilian as a worthy target.
    The Internet is only one tool of many that terrorists use to 
recruit. Many foreign terrorist organizations use various digital 
communication platforms to reach individuals they believe may be 
susceptible and sympathetic to violent extremist messages; however, no 
group has been as successful at drawing people into its perverse 
ideology as ISIS. ISIS has proven dangerously competent at employing 
such tools for its nefarious strategy. ISIS uses high-quality, 
traditional media platforms, as well as widespread social media 
campaigns to propagate its violent extremist ideology. With the 
widespread use of social media, terrorists can spot, assess, recruit, 
and radicalize vulnerable persons of all ages in the United States 
either to travel or to conduct a homeland attack. Through the Internet, 
terrorists overseas now have access into our local communities to 
target and recruit our citizens and spread the message of 
radicalization to violence faster than we imagined just a few years 
ago.
    ISIS is not the only terrorist group of concern. Al Qaeda maintains 
its desire for large-scale attacks; however, continued counterterrorist 
pressure has degraded the group, and in the near term, al Qaeda is more 
likely to focus on supporting small-scale, readily achievable attacks 
against U.S. and allied interests in the Afghanistan/Pakistan region. 
Simultaneously, however, and especially over the last year, propaganda 
from al Qaeda leaders seeks to inspire individuals to conduct their own 
attacks in the United States and the West.
    In addition to foreign terrorist organizations, domestic violent 
extremist movements collectively pose a steady threat of violence and 
economic harm to the United States. Some trends within individual 
movements will shift as most drivers for domestic violent extremism, 
such as perceptions of government or law enforcement overreach, socio-
political conditions, and reactions to legislative actions, remain 
constant. We are most concerned about lone offender attacks, primarily 
shootings, as they have served as the dominant mode for lethal domestic 
extremist violence. We anticipate that law enforcement, racial 
minorities, and the U.S. Government will continue to be significant 
targets for many domestic violent extremist movements.
    As the threat to harm the United States and U.S. interests evolves, 
we must adapt and confront these challenges, relying heavily on the 
strength of our Federal, State, local, and international partnerships. 
The FBI uses all lawful investigative techniques and methods to combat 
these terrorist threats to the United States. Along with our domestic 
and foreign partners, we are collecting and analyzing intelligence 
concerning the ongoing threat posed by foreign terrorist organizations 
and homegrown violent extremists. We continue to encourage information 
sharing, which is evidenced through our partnerships with many Federal, 
State, local, and Tribal agencies assigned to Joint Terrorism Task 
Forces around the country. Be assured, the FBI continues to strive to 
work and share information more efficiently, and to pursue a variety of 
lawful methods to help stay ahead of these threats.
Counterintelligence
    The Nation faces a continuing threat, both traditional and 
asymmetric, from hostile foreign intelligence agencies. Traditional 
espionage, often characterized by career foreign intelligence officers 
acting as diplomats or ordinary citizens, and asymmetric espionage, 
typically carried out by students, researchers, or businesspeople 
operating front companies, is prevalent. Foreign intelligence services 
not only seek our Nation's state and military secrets, but they also 
target commercial trade secrets, research and development, and 
intellectual property, as well as insider information from the Federal 
Government, U.S. corporations, and American universities. Foreign 
intelligence services continue to employ more creative and more 
sophisticated methods to steal innovative technology, critical research 
and development data, and intellectual property, in an effort to erode 
America's economic leading edge. These illicit activities pose a 
significant threat to national security and continue to be a priority 
and focus of the FBI.
    A particular focus of our counterintelligence efforts is aimed at 
the growing scope of the insider threat--that is, when trusted 
employees and contractors use their legitimate access to steal secrets 
for personal benefit or to benefit another company or country. This 
threat has been exacerbated in recent years as businesses have become 
more global and increasingly exposed to foreign intelligence 
organizations.
    To combat this threat, the FBI has undertaken several initiatives. 
We developed and deployed the Hybrid Threat Center (HTC) to support 
Department of Commerce Entity List investigations. The HTC is the first 
of its kind in the FBI; it has been well-received in the U.S. 
Intelligence Community and the private sector.
    Over the past year, we have strengthened collaboration, 
coordination, and interaction between our Counterintelligence and Cyber 
Divisions in an effort to more effectively identify, pursue, and defeat 
hostile intelligence services using cyber means to penetrate or disrupt 
U.S. Government entities or economic interests.
    Finally, we have initiated a media campaign to increase awareness 
of the threat of economic espionage. As part of this initiative, we 
have made a threat awareness video available on our public website, 
which has been shown thousands of times to raise awareness and generate 
referrals from the private sector.
Cyber Threats
    Virtually every national security threat and crime problem the FBI 
faces is cyber-based or facilitated. We face sophisticated cyber 
threats from state-sponsored hackers, hackers for hire, organized cyber 
syndicates, and terrorists. On a daily basis, cyber-based actors seek 
our state secrets, our trade secrets, our technology, and our ideas--
things of incredible value to all of us and of great importance to the 
conduct of our government business and our national security. They seek 
to strike our critical infrastructure and to harm our economy.
    As the committee is well aware, the frequency and impact of cyber-
attacks on our Nation's private sector and government networks have 
increased dramatically in the past decade and are expected to continue 
to grow. We continue to see an increase in the scale and scope of 
reporting on malicious cyber activity that can be measured by the 
amount of corporate data stolen or deleted, personally identifiable 
information compromised, or remediation costs incurred by U.S. victims. 
Within the FBI, we are focused on the most dangerous malicious cyber 
activity: high- level intrusions by state-sponsored hackers and global 
organized crime syndicates, as well as other technically sophisticated 
attacks. FBI agents, analysts, and computer scientists are using 
technical capabilities and traditional investigative techniques--such 
as sources, court-authorized electronic surveillance, physical 
surveillance, and forensics--to fight the full range of cyber threats. 
And we continue to actively coordinate with our private and public 
partners to pierce the veil of anonymity surrounding cyber based 
crimes.
    Botnets used by cyber criminals are have been responsible for 
billions of dollars in damages over the past several years. The 
widespread availability of malicious software (malware) that can create 
botnets allows individuals to leverage the combined bandwidth of 
thousands, if not millions, of compromised computers, servers, or 
network-ready devices to conduct attacks. Cyber threat actors have also 
increasingly conducted ransomware attacks against U.S. systems, 
encrypting data and rendering systems unusable--thereby victimizing 
individuals, businesses, and even public health providers.
    Cyber criminals often operate through online forums, selling 
illicit goods and services, including tools that can be used to 
facilitate cyber attacks. These criminals have also increased the 
sophistication of their schemes, which are more difficult to detect and 
more resilient. Cyber threats are also becoming increasingly difficult 
to investigate. For instance, many cyber actors are based abroad or 
obfuscate their identities by using foreign infrastructure, making 
coordination with international law enforcement partners essential.
    The FBI is engaged in myriad efforts to combat cyber threats, from 
improving threat identification and information sharing inside and 
outside of government to developing and retaining new talent, to 
examining the way we operate to disrupt and defeat these threats. We 
take all potential threats to public and private sector systems 
seriously and will continue to investigate and hold accountable those 
who pose a threat in cyberspace.
Going Dark
    The rapid pace of advances in mobile and other communication 
technologies continue to present a significant challenge to conducting 
court-ordered electronic surveillance of criminals and terrorists. 
There is a real and growing gap between law enforcement's legal 
authority to access digital information and its technical ability to do 
so. The FBI refers to this growing challenge as ``Going Dark,'' and it 
affects the spectrum of our work.
    The benefits of our increasingly digital lives have been 
accompanied by new dangers, and we have seen how criminals and 
terrorists use advances in technology to their advantage. In the 
counterterrorism context, for instance, our agents and analysts are 
increasingly finding that communications and contacts between groups 
like ISIS and potential recruits occur in encrypted private messaging 
platforms. The use of encrypted platforms also presents serious 
challenges to law enforcement's ability to identify, investigate, and 
disrupt threats that range from counterterrorism to child exploitation, 
gangs, drug traffickers and white-collar crimes. In addition, we are 
seeing more and more cases where we believe significant evidence 
resides on a phone, a tablet, or a laptop--evidence that may be the 
difference between an offender being convicted or acquitted. If we 
cannot access this evidence, it will have ongoing, significant effects 
on our ability to identify, stop, and prosecute these offenders.
    Where they can, our agents develop investigative workarounds on a 
case-by-case basis, including by using physical world techniques and 
examining non-content sources of digital information (such as 
metadata). As an organization, the FBI also invests in alternative 
methods of lawful engineered access. Ultimately, these efforts, while 
significant, have severe constraints. Non-content information is often 
not sufficient to meet the rigorous constitutional burden to prove 
crimes beyond a reasonable doubt. Likewise, developing alternative 
technical methods is typically a time-consuming, expensive, and 
uncertain process. Even when possible, such methods are difficult to 
scale across investigations, and may be perishable due to a short 
technical life cycle or as a consequence of disclosure through legal 
proceedings.
    We respect the right of Americans to engage in private 
communications, regardless of the medium or technology. The more we as 
a society rely on electronic devices to communicate and store 
information, the more likely it is that information once found in 
filing cabinets, letters, and photo albums will now be stored only in 
electronic form. Whether it is instant messages, texts, or old-
fashioned letters, citizens have the right to communicate with one 
another in private, because the free flow of information is vital to a 
thriving democracy. Our aim is not to expand the government's legal 
authority, but rather to ensure that we can obtain electronic 
information and evidence pursuant to the statutory authority that 
Congress already has provided to us to keep America safe. The benefits 
of our increasingly digital lives have been accompanied by new dangers, 
and we have seen how criminals and terrorists use advances in 
technology to their advantage. When changes in technology hinder law 
enforcement's ability to exercise investigative tools and follow 
critical leads, those changes also hinder efforts to identify and stop 
criminals or terrorists.
    Some observers have conceived of this challenge as a trade-off 
between privacy and security. In our view, the demanding requirements 
to obtain legal authority to access data--such as by applying to a 
neutral judge for a warrant or a wiretap--necessarily already account 
for both privacy and security. The FBI is actively engaged with 
relevant stakeholders, including companies providing technological 
services, to educate them on the effects of the Going Dark challenge on 
both public safety and the rule of law, and with the academic community 
and technologists to encourage their voluntary cooperation to work with 
us on developing technical solutions to this problem.
                            criminal threats
    We face many criminal threats, from complex white-collar fraud in 
the financial, healthcare, and housing sectors to transnational and 
regional organized criminal enterprises to violent crime and public 
corruption. Criminal organizations--domestic and international--and 
individual criminal activity represent a significant threat to our 
security and safety in communities across the Nation. A key tenet of 
protecting the Nation from those who wish to do us harm is the National 
Instant Criminal Background Check System, or NICS. The goal of NICS is 
to ensure that guns don't fall into the wrong hands, and also ensures 
the timely transfer of firearms to eligible gun buyers. Mandated by the 
Brady Handgun Violence Prevention Act of 1993 and launched by the FBI 
on November 30, 1998, NICS is used by Federal Firearms Licensees (FFLs) 
to instantly determine whether a prospective buyer is eligible to buy 
firearms. NICS receives information from tens of thousands of FFLs and 
checks to ensure that applicants do not have a criminal record or 
aren't otherwise prohibited and therefore ineligible to purchase a 
firearm. In the first complete month of operation in 1998, a total of 
892,840 firearm background checks were processed; in 2017, 
approximately 2.1 million checks were processed per month.
    While most checks are completed by electronic searches of the NICS 
database within minutes, a small number of checks require examiners to 
review records and resolve missing or incomplete information before an 
application can be approved or rejected. Ensuring the timely processing 
of these inquiries is important to ensure law abiding citizens can 
exercise their right to purchase a firearm and to protect communities 
from prohibited and therefore ineligible individuals attempting to 
acquire a firearm. The FBI is currently processing a record number of 
checks, averaging over 2.3 million a month during the first 3 months of 
2018.
Violent Crime
    Violent crimes and gang activities exact a high toll on individuals 
and communities. Many of today's gangs are sophisticated and well 
organized and use violence to control neighborhoods, and boost their 
illegal money-making activities, which include robbery, drug and gun 
trafficking, fraud, extortion, and prostitution rings. These gangs do 
not limit their illegal activities to single jurisdictions or 
communities. The FBI is able to work across such lines, which is vital 
to the fight against violent crime in big cities and small towns across 
the Nation. Every day, FBI special agents work in partnership with 
Federal, State, local, and Tribal officers and deputies on joint task 
forces and individual investigations.
    FBI joint task forces--Violent Crime Safe Streets, Violent Gang 
Safe Streets, and SafeTrails--focus on identifying and targeting major 
groups operating as criminal enterprises. Much of the FBI criminal 
intelligence is derived from our State, local, and Tribal law 
enforcement partners, who know their communities inside and out. Joint 
task forces benefit from FBI surveillance assets, and our sources track 
these gangs to identify emerging trends. Through these multi- subject 
and multi-jurisdictional investigations, the FBI concentrates its 
efforts on high-level groups engaged in patterns of racketeering. This 
investigative model enables us to target senior gang leadership and to 
develop enterprise-based prosecutions.
    By way of example, the FBI has dedicated tremendous resources to 
combat the threat of violence posed by MS-13. The atypical nature of 
this gang has required a multi-pronged approach--we work through our 
task forces here in the U.S. while simultaneously gathering 
intelligence and aiding our international law enforcement partners. We 
do this through the FBI's Transnational Anti-Gang Task Forces (TAGs). 
Established in El Salvador in 2007 through the FBI's National Gang Task 
Force, Legal Attache (Legat) San Salvador, and the United States 
Department of State, each TAG is a fully operational unit responsible 
for the investigation of MS-13 operating in the Northern Triangle of 
Central America and threatening the United States. This program 
combines the expertise, resources, and jurisdiction of participating 
agencies involved in investigating and countering transnational 
criminal gang activity in the United States and Central America. There 
are now TAGs in El Salvador, Guatemala, and Honduras. Through these 
combined efforts, the FBI has achieved substantial success in 
countering the MS-13 threat across the United States and Central 
America.
    Despite these efforts, we still have work to do. The latest Uniform 
Crime Reporting statistics gathered from the Crime in the United 
States, 2016 show the number of violent crimes in the Nation increased 
by 4.1 percent compared with the 2015 estimate, and although 
preliminary data for 2017 shows that violent crime overall is leveling 
off and murder may be on the decline, there are still jurisdictions 
that are struggling. We also still have far to go before crime rates 
are back to the levels in 2014 and 2015. We are committed to working 
with our Federal, State, local, and Tribal partners toward that end.
Transnational Organized Crime
    More than a decade ago, organized crime was characterized by 
hierarchical organizations, or families, that exerted influence over 
criminal activities in neighborhoods, cities, or States. But organized 
crime has changed dramatically. Today, international criminal 
enterprises run multi-national, multi-billion-dollar schemes from start 
to finish. Modern-day criminal enterprises are flat, fluid networks 
with global reach. While still engaged in many of the ``traditional'' 
organized crime activities of loan-sharking, extortion, and murder, 
modern criminal enterprises are targeting stock market fraud and 
manipulation, cyber-facilitated bank fraud and embezzlement, identity 
theft, human trafficking , and other illegal activities. Preventing and 
combating transnational organized crime demands a concentrated effort 
by the FBI and Federal, State, local, Tribal, and international 
partners.
    While the FBI continues to share intelligence about criminal groups 
with our partners and combines resources and expertise to gain a full 
understanding of each group, the threat of transnational crime remains 
a significant and growing threat to national and international security 
with implications for public safety, public health, democratic 
institutions and economic stability across the globe.
Opioids
    Large amounts of high-quality, low cost heroin and illicit fentanyl 
are contributing to record numbers of overdose deaths and life-
threatening addictions nationwide. Transnational criminal organizations 
(TCOs) are also introducing synthetic opioids to the U.S. market, 
including fentanyl and fentanyl analogs. To address this evolving 
threat, we are taking a multi-faceted approach and establishing many 
initiatives and units across our criminal program.
    One response to this threat is our Prescription Drug Initiative 
(PDI). The PDI was established in 2016 in response to the substantial 
and increasing threat associated with prescription drug diversion, and 
in particular, the staggering national increase in opioid-related 
deaths. The objective of the PDI is to identify and target criminal 
enterprises and other groups engaged in prescription drug schemes; 
identify and prosecute, where appropriate, organizations with improper 
corporate policies related to prescription drugs; and identify and 
prosecute, where appropriate, organizations with improper prescribing 
and dispensing practices. The PDI prioritizes investigations which 
target ``gatekeeper'' positions, to include medical professionals and 
pharmacies that divert opioids outside the scope of their medical 
practice and/or distribute these medications with no legitimate medical 
purpose. Since its inception, the PDI has resulted in the conviction of 
numerous medical professionals and secured significant Federal prison 
sentences, to include life terms for physicians who cause harm or death 
to the patients entrusted to their care. In August of 2017, PDI 
resources were enlisted to support the Attorney General's Opioid Fraud 
and Abuse Detection Unit in 12 judicial districts significantly 
affected by the opioid crisis.
    The Hi-Tech Organized Crime Unit (HTOCU) is another response to the 
growing opioid epidemic. This unit focuses on the trafficking of 
opioids via the Internet, specifically the Dark Net. HTOCU is leading a 
proactive effort to increase awareness, train personnel, and provide 
guidance to FBI field offices on how to successfully address this 
threat. As a result, numerous investigations and operations have been 
initiated and several online vendors who are facilitating the 
trafficking of opioids via the Internet, to include fentanyl, have been 
disrupted. Beyond these two programs, the FBI has dedicated additional 
resources to address this expansive threat. We have more than doubled 
our number of Transnational Organized Crime Task Forces, expanded the 
Organized Crime Drug Enforcement Task Force (OCDETF) Airport Initiative 
to focus on insider threats partnering with TCO actors, and created and 
led the Fentanyl Safety Working Group at FBI Headquarters, which has 
led to a new program to protect field agents and support employees with 
personal protective equipment (PPE) and opioid antagonists (i.e. 
naloxone) from the threat of fentanyl exposure. The FBI participated, 
along with other Federal partners, in the creation of the Heroin 
Availability Reduction Plan (HARP), takes part in monthly HARP meetings 
hosted by the Office of National Drug Control Policy (ONDCP), and 
continues to provide training to our international law enforcement 
partners on successful identification, seizure, and neutralization of 
clandestine heroin/fentanyl laboratories.
Crimes Against Children
    The FBI also has several programs in place to arrest child 
predators and to recover missing and endangered children. To this end, 
the FBI funds or participates in a variety of endeavors, including our 
Innocence Lost National Initiative, Innocent Images National 
Initiative, annual Operation Cross Country, Child Abduction Rapid 
Deployment Teams, Victim Services, 80 Child Exploitation Task Forces, 
53 International Violent Crimes Against Children Task Force Officers, 
as well as numerous community outreach programs to educate parents and 
children about safety measures they can follow.
    The FBI committed significant resources to Operation Pacifier, 
which targeted the administrators and users of ``Playpen''--a members-
only website on the Tor anonymity network run by a highly-
sophisticated, global enterprise dedicated to the sexual exploitation 
of children. To date, in the United States this operation has led to 
the arrest of over 348 individuals, the prosecution of 25 child 
pornography producers and 51 hands-on abusers, and the rescue or 
identification of 55 children. This operation has also yielded the 
arrest of 548 individuals abroad, and the identification or rescue of 
296 children abroad. These successes only underscore how much work 
remains to address child exploitation on the Dark Net.
    Another such program is Operation Cross Country. This nationwide 
law enforcement action focuses on underage victims of sex trafficking, 
completed its 11th iteration during the second week of October and 
recovered 84 minors. Over 400 agencies partnering with FBI field 
offices were instrumental in recovering child victims of all 
backgrounds and arresting sex traffickers, including sex customers. 
More than 100 victim specialists, in coordination with local law 
enforcement victim advocates and non-governmental organizations, 
provided services to child and adult victims.
    Child Abduction Rapid Deployment Teams are ready response teams 
stationed across the country to quickly respond to abductions. 
Investigators bring to this issue the full array of forensic tools such 
as DNA analysis, trace evidence, impression evidence, and digital 
forensics. Through improved communications, law enforcement also has 
the ability to quickly share information with partners throughout the 
world, and these outreach programs play an integral role in prevention.
             key cross-cutting capabilities and capacities
    I would like to briefly highlight some key cross-cutting 
capabilities and capacities that are critical to our efforts in each of 
the threat and crime problems described.
Operational and Information Technology
    As criminal and terrorist threats become more diverse and 
dangerous, the role of technology becomes increasingly important to our 
efforts. We are using technology to improve the way we collect, 
analyze, and share information. We have seen significant improvement in 
capabilities and capacities over the past decade; but keeping pace with 
technology remains a key concern for the future.
    The FBI Laboratory is one of the largest and most comprehensive 
forensic laboratories in the world. Operating out of a state-of-the-art 
facility in Quantico, Virginia, laboratory personnel travel the world 
on assignment, using science and technology to protect the Nation and 
support law enforcement, intelligence, military, and forensic science 
partners. The Lab's many services include providing expert testimony, 
mapping crime scenes, and conducting forensic exams of physical and 
hazardous evidence. Lab personnel possess expertise in many areas of 
forensics supporting law enforcement and intelligence purposes, 
including explosives, trace evidence, documents, chemistry, 
cryptography, DNA, facial reconstruction, fingerprints, firearms, 
digital forensics and weapons of mass destruction (WMD).
    One example of the Lab's key services and programs is the Combined 
DNA Index System (CODIS), software the FBI develops and administers, 
which allows 200 law enforcement laboratories throughout the United 
States to compare over 16 million DNA profiles. In the last 20 years, 
CODIS has aided nearly 400,000 investigations, while maintaining its 
sterling reputation and the confidence of the American public.
    The Terrorist Explosives Device Analytical Center (TEDAC) is 
another example. Formally established in 2004, TEDAC serves as the 
single interagency organization that receives, fully analyzes, and 
exploits all priority terrorist improvised explosive devices (IEDs). 
TEDAC coordinates the efforts of the entire government, including law 
enforcement, intelligence, and military entities, to gather and share 
intelligence about IEDs. These efforts help disarm and disrupt IEDs, 
link them to their makers, and prevent future attacks. For example, 
Laboratory Division personnel recently testified in New York in the 
successful prosecution of Muhanad Mahmoud Al Farekh after linking him 
to a vehicle-borne improvised explosive device prepared for an attack 
on the U.S. military base in Afghanistan. Although originally focused 
on devices from Iraq and Afghanistan, TEDAC now receives and analyzes 
devices from all over the world.
    Additionally, the Laboratory Division maintains a capability to 
provide forensic support for significant shooting investigations. The 
Laboratory Shooting Reconstruction Team provides support to FBI field 
offices by bringing together expertise from various Laboratory 
components to provide enhanced technical support to document complex 
shooting crime scenes. Services are scene- and situation-dependent and 
may include mapping of the shooting scene in two or three dimensions, 
scene documentation through photography, including aerial and oblique 
imagery, 360-degree photography and videography, trajectory 
reconstruction, and the analysis of gunshot residue and shot patterns. 
Significant investigations supported by this team include the shootings 
at the Inland Regional Center in San Bernardino, California; the Pulse 
Night Club in Orlando, Florida; the Route 91 Harvest Music Festival in 
Las Vegas, Nevada; and the shooting of 12 police officers during a 
protest against police shootings in Dallas, Texas.
    FBI Special Agents and Intelligence Analysts need the best 
technological tools available to be responsive to the advanced and 
evolving threats that face our Nation. Enterprise information 
technology must be designed so that it provides information to 
operational employees rather than forcing employees to conform to the 
tools available. IT equipment must be reliable and accessible, thus 
decreasing the time between information collection and dissemination.
                               conclusion
    In closing, the work being done by the FBI is immeasurable; 
however, we cannot afford to be complacent. We must seek out new 
technologies and solutions for the problems that exist today as well as 
those that are on the horizon. We must build toward the future so that 
we are prepared to deal with the threats we will face at home and 
abroad and understand how those threats may be connected. Towards that 
end, intelligence is gathered, consistent with our authorities, to help 
us understand and prioritize identified threats and to determine where 
there are gaps. We then try to fill those gaps and continue to learn as 
much as we can about the threats we are addressing and those we may 
need to address. We do this for national security and criminal threats, 
on both a national and local field office level. We then compare the 
national and local perspectives to develop a threat prioritization 
ranking for each of the FBI's 56 field offices. By creating this 
ranking, we strive to actively pursue our highest threats where they 
are occurring. This gives us a better assessment of what the dangers 
are, what's being done about them, and what we should spend time and 
valuable resources on.
    A key challenge inhibiting our ability to address current and 
future threats is the lack of a headquarters facility that fully 
fosters collaboration, intelligence sharing, and is dynamic, enabling 
Special Agents, Intelligence Analyst, and other Professional Staff to 
combat evolving threats as they arise. The current J. Edgar Hoover 
building is incompatible with what the United States expects of the 
FBI. Our goal is to build a consolidated, secure, resilient 
intelligence community-worthy facility. But even more than that, what 
we need is a facility capable of meeting the increased demands of the 
Nation's premier Intelligence and Law Enforcement organization for the 
future of the FBI. This building will address the way we will work for 
the next 50 or more years.
    Being expected to respond to a wide range of complex and ever-
changing threats and crime problems is not new to the FBI. Our success 
in meeting these challenges is, however, directly tied to the resources 
provided to the FBI. The resources the Committee provides each year are 
critical for the FBI's ability to address existing and emerging 
national security and criminal threats.
    Chairman Moran, Ranking Member Shaheen, and Members of the 
subcommittee, I would like to close by thanking you for this 
opportunity to discuss the FBI's fiscal year 2019 budget request and 
the key threats and challenges that we are facing, both as a nation and 
as an organization. We are grateful for the leadership that you and 
this subcommittee have provided to the FBI. We would not possess the 
capabilities and capacities to deal with these threats and challenges 
today without your support. Your willingness to invest in and support 
our workforce and our physical and technical infrastructure allow the 
men and women of the FBI to make a difference every day in communities 
large and small throughout our Nation and around the world. We thank 
you for that support.
    I look forward to answering any questions you may have.

    Senator Moran. Thank you, Director. I will begin with my 
round of questioning. I will try to do so very briefly as well.

                             USA GYMNASTICS

    I had intended to ask much more budget-oriented questions 
before I got to this one, but I do want to highlight the 
importance to me in an effort that our subcommittee in 
Commerce--I Chair a subcommittee in Commerce that is 
responsible for Olympic and amateur sports through the Ted 
Stevens Olympic and Amateur Sports Act. Senator Feinstein from 
California has been hugely engaged in this issue. But our 
subcommittee is looking at the issue of the perspective of what 
happened to gymnasts, in particular, but Olympian sports 
figures as a result of sexual abuse.
    In our investigation, we have collected thousands of 
documents and have had two hearings. One of the things, 
Director, that I wanted to ask you, let me read this so I get 
it correct: There are current and former athletes who have come 
forward with accusations of abuse by individuals associated 
with their sport, and Michigan State's response to claims of 
sexual abuse indicate that those indications were such that the 
FBI had been notified. As you would know, Dr. Larry Nassar has 
been convicted and is serving prison time. But the follow-up to 
that has been that the various entities who received reports of 
this abuse had an indication from the FBI not to say anything 
and that the FBI had been notified.
    I know that you have commenced an investigation, an 
internal investigation, of what transpired, but the answers to 
these questions are important to us as we pursue additional 
hearings in the near future.
    So, Director, I would appreciate anything that you can tell 
me about whether or not reports of abuse of athletes were made 
to the FBI, and if the FBI would have encouraged or insisted 
that the people making those reports say nothing to anyone 
else.
    Director Wray. Mr. Chairman, as we have discussed, 
obviously, I think what happened to those women is horrific, 
and I am gratified that Dr. Nassar is being held accountable 
and will be spending the rest of his life in prison.
    I first learned that there were questions about the FBI's 
response to allegations when during the 2015-2016 period when 
those things were happening. I learned of the allegations in 
February when the newspapers started raising the issue. I 
immediately commissioned our Inspection Division to do a deep 
dive after-action report to look at what was done, what was not 
done, what lessons we can learn and how we can make sure that 
we are doing things appropriately.
    That review is ongoing, so I do not have anything to report 
on right now. But I am very much looking forward to that and am 
committed to taking appropriate steps once I hear what they 
find.
    Senator Moran. I look forward to following that report's 
completion, having a full understanding of what transpired, 
because it will have consequences for others involved that we 
are investigating.
    Let me just ask a general question. It is related to the 
one that we just discussed.

                        CONGRESSIONAL OVERSIGHT

    I am of the view that the appropriations process needs to 
work. We need to march 12 appropriations bills across the 
Senate floor, across the House floor, and be considered by a 
President. Obviously, the appropriations process is about 
spending money and priorities, which we look forward to hearing 
more from you about, but it is also about oversight. I want 
this subcommittee to be in a position in which we pursue 
whether or not taxpayer dollars are wisely spent.
    I would just ask you, at this point, tell me your view 
about congressional oversight. What do you expect to be the 
relationship between our subcommittee and other congressional 
committees in regard to the FBI? And what is its responsibility 
to Congress?
    Director Wray. Mr. Chairman, this is an important topic to 
me. We respect very much the importance of traditional 
congressional oversight. We welcome the tough questions, given 
our responsibilities, and we are committed to being as 
responsive as we can to appropriate questions and requests. Of 
course, we are also committed to being faithful to our oath to 
protect the American people and uphold the Constitution.
    All of us in the intelligence community understand that to 
include, as it always has, protection of sources and methods. I 
will tell you that, as anybody in the intelligence community 
knows, human sources, in particular, who have put themselves at 
great risk to work with us and with our foreign partners have 
to be able to trust that we are going to protect their 
identities and, in many cases, their lives and the lives of 
their families. The day that we cannot protect human sources is 
the day the American people start becoming less safe.
    Senator Moran. Thank you, Director.
    Let me now turn to the Ranking Member, Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.

                             USA GYMNASTICS

    It is nice to have you here, Director Wray. I want to 
follow up on Senator Moran's question about the investigation 
into USA Gymnastics and Larry Nassar, and applaud his efforts 
as head of the Commerce subcommittee that is looking into this 
matter.
    You may not know the answer. If you do not, I hope you will 
see if you can find out and include that information in what is 
provided to this subcommittee. When FBI agents interviewed 
individuals who had alleged abuse by Nassar, do you know if 
there were victim specialists or, in the case of minors, child 
adolescent forensic interviewers, there for those interviews?
    Director Wray. Senator, I do not know the answer to that 
question. I do know that our Office of Victim Assistance, as we 
call it, is an incredibly important function for us, in 
particular to deal with victims exactly like these folks. They 
are stretched very, very thin. But the reason we call them 
Office of Victim Assistance is because they are designed to 
help victims. It is not just to make them possible witnesses.
    Senator Shaheen. I hope your investigation will examine 
that matter and make sure if the appropriate people were not 
present, that it will reflect that, so that we have that 
information in the future.
    Also, do you commit to sharing the summary results of that 
internal review with this subcommittee?
    Director Wray. I would be happy to make sure that we are 
providing the subcommittee all appropriate information about 
that review. At the moment, I do not know yet what they are 
going to find, of course, but this is an important topic to me. 
There is nothing more important, no category of victims more 
important, then the most vulnerable populations, which includes 
our kids.
    Senator Shaheen. Absolutely. I think the question is not 
just if Larry Nassar will be held accountable, but also any 
other participants in USA Gymnastics or the U.S. Olympic 
Committee who knew what was going on. We need to hold those 
individuals accountable, too.

                           ELECTION SECURITY

    When you and I spoke on the phone, and I appreciated your 
call, we talked about the elections coming up. The intelligence 
community has said there are reasons to believe the 
interference we saw in the 2016 election by the Russians will 
be occurring in 2018 or there will be an effort to interfere 
again in 2018. Can you talk about what the FBI is doing to 
secure our election systems?
    Director Wray. I think in particular--we work very closely 
with the Department of Homeland Security and others. Our role, 
in particular, is focused on trying to identify the threat, 
investigate the threat, pursue and disrupt the threat. One of 
the first things I did after getting sworn in as Director was 
create a Foreign Influence Task Force, which brings together 
our Counterintelligence Division, our Cyber Division, our 
Criminal Division, and even our Counterterrorism Division, 
believe it or not, with the idea of having a single, 
consolidated, coordinated effort that makes this issue a 
priority. And we work with our colleagues at DHS. We work with 
our foreign partners, because, of course, they have concerns 
about efforts to interfere or influence, I should say, their 
elections.
    So we are actively working with a particular focus on 2018 
and then, ultimately, 2020.
    Senator Shaheen. I am really pleased to hear that, and I 
look forward to hearing more details about that in our closed 
session, because I think this is not a partisan issue. This is 
an issue about a foreign government's efforts to undermine our 
system of government and, ultimately, our way of life in 
America. So, whatever the FBI can do to address that issue I 
think is very important.

                               BLACK CUBE

    On May 6, ``The New Yorker'' ran what I thought was a very 
troubling story about an Israeli private-intelligence firm 
called ``Black Cube''. The firm, apparently, is accused of 
performing an undercover campaign to discredit Obama 
administration officials who were proponents of the 2015 Iran 
nuclear deal. The firm has also been accused of being used by 
Harvey Weinstein to gather intelligence on his victims in order 
to stop the publication of sexual misconduct allegations 
against him.
    What is the FBI's role in investigating this kind of 
organization?
    Director Wray. Senator, of course, I cannot comment on or 
even confirm the existence of any specific investigation. But 
what I can tell you is that we look at these things through two 
lenses. There is both a criminal lens and a counterintelligence 
lens.
    On the counterintelligence lens, any time a firm that might 
be working on behalf of a foreign power, for example, we would 
want to be approaching whether or not there are 
counterintelligence implications from that end of it. Likewise, 
on the criminal side, we would be looking at any kind of firm 
that might be engaged in any violation of Federal criminal law. 
There are many of those, as you can imagine.
    Senator Shaheen. Thank you. My time is up. I apologize for 
leaving to go to another hearing, but I look forward to seeing 
you in the closed session.
    Senator Moran. Senator Shaheen, thank you for your 
questioning in regard to the athletes. I appreciate your 
leadership in this regard. I know how seriously you take it.
    Senator Lankford is next recognized. We are going to hold 
you to the time limit as best I can.
    Senator Lankford. I will take it from there. Thank you, Mr. 
Chairman.

                           DOCUMENT REQUESTS

    Director, good to see you again. Over the past 6 months, 
there have been numerous document requests back and forth with 
the FBI. The FBI has hired additional contractors to be able to 
expedite some of that process.
    Can you give me an update on requests from the House and 
the Senate for any documents that we have requested either from 
the House or Senate to be able to have access to, redacted or 
unredacted? What is the status of those at this point?
    Director Wray. Senator, as you alluded to; we actually have 
been dealing with quite a number of requests, some of them 
almost unprecedented in their volume from a number of different 
committees. We have, in the case of one committee, for example, 
doubled the number of people working on it basically around the 
clock, full-time, to over 50 people.
    So we are chugging away, making progress. A lot of the 
redactions, depending on the particular committee requesting, 
have to do with things like grand jury secrecy, where we 
legally have an implication or, as I referenced with the 
Chairman, protection of human sources and methods, or, in some 
cases, ongoing investigations.
    So we are trying our best to be responsive, but we are also 
trying to be responsible.
    Senator Lankford. Sure. So do you have any deadlines when 
they will be--all documents that are currently in request--I am 
sure there is always another request coming.
    Director Wray. Well, it is rolling. I do not have numbers 
for you here right now, with that level of specificity in this 
hearing. But I can tell you that every week we are cranking out 
documents and people are coming over to spaces that we have set 
aside for the Hill to review documents. So it is an ongoing 
process of thousands of documents being produced.

                    FBI AND ATF PROCESSES ALIGNMENT

    Senator Lankford. Sure. Let me switch over. The Department 
of Justice and I started a conversation about 6 years ago about 
trying to align the processes of FBI and ATF, because they are 
both doing investigations, but their processes are very 
different. I know you do not oversee ATF, but I have continued 
to be able to raise the Department of Justice to be able to 
take a look at those two processes and make sure they are good 
and consistent. Quite frankly, I think the FBI has a very good 
process to be able to go through how you conduct 
investigations, how you gather evidence, what you do. There may 
be some things to be able to learn from ATF.
    Do you know if there has been outreach from DOJ yet to FBI 
to be able to look at processes at FBI, to try to lay that 
comparison with ATF?
    Director Wray. Senator, I do not know specifically about 
that. I will tell you that we work daily with ATF. They are 
great partners. As you say, while I am sure there are things 
they can learn from us, there are definitely things we can 
learn from them, too, so we are in constant contact at all 
levels.
    Senator Lankford. Great. We will continue to follow up on 
that.

                            BACKGROUND CHECK

    The background checks have been a constant issue about 
trying to raise the number of background checks and the speed 
of those. The FBI is obviously very involved in helping with 
that process.
    Can you help us understand better what can be done better 
not only to up the speed but to give your agents more time to 
be able to work on transnational criminal organizations, crimes 
against children, and so many other things that you do rather 
than so much time on the background checks? Is there a better 
way to do it?
    Director Wray. I think we are all frustrated at the pace. 
We have to be thorough. We have to be careful.
    I think one of the challenges that we deal with is that, 
when we are running searches, we are fundamentally, at the FBI, 
a field-deployed organization, so it is not just that there 
could be one place centrally at headquarters that would have 
all that information.
    Nominees could probably be faster in getting us paperwork 
because that is where we start. But there are a lot of 
different ways in which lots of us have to do more. We have 
looked at things, and we do do things like use retired agents 
who sometimes come back as contractors, because they have that 
some of that judgment and experience. All of that requires 
resources, but that is another way we are trying----
    Senator Lankford. If there are ways that we can help on 
that, we are very interested in being able to get that from 
you. Obviously, we do not want to take a lot of time from your 
agents' time with other projects they have. This is very 
important as well, to be able to do background checks with 
great speed, but it also takes a tremendous amount of time.

                     TRANSNATIONAL ORGANIZED CRIME

    Let me switch over to transnational criminal organizations 
to try to see the focus you have had and the cooperation with 
U.S. attorneys at this point, because that requires a 
tremendous amount of coordination with all areas DHS, all 
areas, obviously, of the FBI, U.S. attorneys.
    What are you seeing at this point in the transnational 
criminal organizations?
    Director Wray. I think transnational criminal organizations 
are maybe one of the least talked about but yet most pervasive 
threats we have to deal with. We see it not just in the obvious 
in terms of drug trafficking and all kinds of violent crime, 
but even the things that might not be as obvious to the 
American people. Of course, they are involved in human 
trafficking. We have seen reporting about them relying on 
intellectual property theft of all kinds of things to raise 
revenue.
    So pretty much any violation that the subcommittee can 
think about, transnational criminal organizations are in them. 
So we are seeing that more and more.
    I think one of the strengths that the FBI brings to the 
table, over the course of its entire 110-year history, is a 
focus on organized crime, dismantling enterprises, going after 
not just the people but taking apart their infrastructure, 
taking away their money, all of that. So it is something that I 
think we are going to have to put even more focus on and kind 
of capture also the global cross-border dynamics.
    So at the end of the day, I think it comes down to 
technology and the cross-border dimension to it. Those are the 
trends that I would most cite to you on that.
    Senator Lankford. We want you to keep your eye on the ball 
on that and will be glad to be able to help. Let us know what 
you need.
    Director Wray. Thank you.
    Senator Moran. The Vice Chairman of the full committee is 
recognized, Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    Director Wray, thank you for being here today. As you know, 
I began my career in law enforcement. I watch the FBI and 
others, and I hope you will take back to the bureau my thanks 
to the men and women who are working every day to uphold the 
integrity and independence of the FBI. That is important to all 
of us.
    I have a number of questions for you.
    I will note for the record the President's budget request 
reduces overall FBI funding by 5 percent. They request no 
funding for the new FBI headquarters. They request a rescission 
of another $148 million in salaries and expenses. I am going to 
give you a question for the record of how that will impact the 
ability of the FBI to do its job.
    Frankly, I am concerned with this administration--I would 
be concerned with any administration, but this one especially 
with the relentless, politicized attacks on our Nation's law 
enforcement institutions, because I think that could affect 
their independence. There is a unifying theme to it. They 
attack anybody who has investigated Russia's interference in 
our democracy.

                          RUSSIA INVESTIGATION

    The President has called your bureau ``a disgrace''. The 
Chair of the House Intelligence Committee suggested you should 
be impeached, which goes beyond balderdash. It is one of the 
dumbest statements I have heard any Member of Congress of 
either party ever say, and I have heard a few in both parties.
    You have been the Director of the FBI since August. Do you 
believe the men and women of the FBI working on the Russia 
investigation are driven by anything other than a duty to the 
rule of law and to ensuring that anyone who attacked our 
democracy in 2016 is held accountable?
    Director Wray. Senator, I can only speak to what I have 
seen since I have been on the job, but the agents that I have 
worked with since being on the job have inspired me every day 
in terms of their professionalism, their integrity, their 
courage, and their commitment to doing the right thing in the 
right way, which I think is the key.
    Senator Leahy. You said at your confirmation hearing that 
the Russia investigation was not a ``witch hunt''. You have 
been there as the FBI Director for 10 months. You are far more 
immersed in the details of the FBI. Is that still your opinion?
    Director Wray. Yes.

                                  ZTE

    Senator Leahy. Thank you. You also recently testified that 
you are ``deeply concerned'' about allowing the Chinese cell 
phone company ZTE to operate within the United States because 
of the potential for espionage.
    The company also violated sanctions and sold technology to 
North Korea and Iran, and our Commerce Department has brought 
charges against them. But the President announced on Twitter 
this week that he has ``instructed'' his Commerce Department to 
get ZTE ``back in business, fast'', so those Chinese jobs are 
not lost.
    If the President allows ZTE further access to our market 
and to American technology, could this place both our 
telecommunications networks and Americans' private data at-
risk?
    Director Wray. Senator, the questions about the Commerce 
Department's settlements, its remedies, and penalties, I would 
defer to the Commerce Department.
    Senator Leahy. I understand.
    Director Wray. But what I can tell you is that we at the 
FBI remain deeply concerned that any company beholden to 
foreign governments that do not share our values are not 
companies that we want to be gaining positions of power inside 
our telecommunications network.
    That gives them the capacity to maliciously modify or steal 
information. That gives them the capacity to conduct undetected 
espionage. That gives them the capacity to exert pressure or 
control.
    So all of those are things that we were concerned about 
with any company that, as I say, is beholden to a foreign 
government.
    Senator Leahy. But this company, is there pretty well a 
consensus among our intelligence people, the FBI included, that 
they do pose a threat or a potential threat to us?
    Director Wray. Again, I want to be careful in this setting 
in commenting on a specific company, but I remain of the view 
that I have articulated before about companies of this sort and 
the capacity that giving them access to our telecommunications 
network provides.
    Senator Leahy. You had earlier testified specifically on 
ZTE.
    Director Wray. In response to a question about that 
company, I provided an answer almost identical to what I just 
did here. My view has not changed since that earlier testimony.
    Senator Leahy. I share your concern about ZTE. I was 
concerned that, 72 hours after the Chinese Government pumped a 
half billion dollars into a theme park in Indonesia that had 
Donald Trump's name on it, he said we should put those people 
back to work.
    But that is probably just coincidence, Mr. Chairman.
    Senator Moran. Senator Leahy, thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Welcome, Director, and thank you for your leadership.

                          HOMEGROWN EXTREMISTS

    A major challenge for the FBI is homegrown extremists in 
every State in the Nation who have been inspired by ISIS or Al 
Qaeda or similar groups, and radicalized no longer by traveling 
to training camps but via the Internet through videos or 
private chat rooms or other means.
    How is the FBI countering that threat? It seems to be very 
difficult to identify these individuals.
    Director Wray. Senator, you are exactly right. You put your 
finger on what I would call sort of our highest 
counterterrorism priority at the moment. We have about 1,000 
investigations into exactly the kind of people you are 
describing, covering all 50 States as I am sitting here right 
now. That is not even counting the Al Qaeda investigations, the 
traditional ISIS investigations, or the domestic terrorism 
investigations, but just the group you are talking about.
    What makes it so hard is that there are not many dots to 
connect with some of these people. They pick soft targets. They 
use easy-to-use weapons, IEDs, cars, knives, guns. And they can 
make decisions on the spur of the moment.
    We are trying to get better at looking for red flags as to 
when people who are getting radicalized make that switch into 
potentially mobilizing. A lot of that is outreach to the 
community, and partnership with our State and local law 
enforcement who know those communities better, but it is hard.
    It is something that I compare notes with my foreign 
counterparts on a lot, and they have the same challenge. All of 
our closest allies have the same issue.

                             NO FLY, NO BUY

    Senator Collins. I introduced a bill that we refer to as 
the No Fly, No Buy legislation. What it says is that, if you 
are listed on the Government's terrorist watch list--and I am 
not talking about the very broad one; I am talking about the 
no-fly list--where you are considered to be so dangerous that 
we do not allow you to board an airplane--now, obviously, a lot 
of the people on this list are not Americans, but there is a 
small subset that is. Our bipartisan bill says that you should 
not be able to purchase a firearm if you are on that list.
    It has robust due-process provisions, so you can challenge 
the denial of the firearm purchase in Federal court. If you 
win, your attorney fees are reimbursed to you.
    Do you think that is a good policy for us?
    Director Wray. I certainly, like you, want to make sure 
that we are keeping guns out of the wrong hands. I think I 
would have to look hard at the legislation itself to have a 
better sense of not just legally, which I would consult with 
the Department on, but operationally what it would mean. So I 
would be happy to take a closer look at the bill.
    Senator Collins. Thank you. That would be helpful.

                             CYBERSECURITY

    Finally, how is the FBI responding to the growing 
cybersecurity threat from both state and nonstate actors, 
particularly with regard to our critical infrastructure, such 
as the electrical grid?
    Director Wray. We are doing a number of things, both on the 
enforcement and investigations side but also on the outreach 
and communication side. We have cyber task forces in every 
field office. We have a 24/7 Cyber Watch, kind of like our 
Strategic Information and Operations Center (SIOC) on that 
terrorism side. We have a number of things like that that help 
lead the investigation.
    Then on the outreach side, we try to communicate with the 
critical infrastructure private sector and give them threat 
information so that they can better prepare. We are trying to 
be more forward-leaning all the time. I talk about this when I 
meet with the private sector--how we can better get them 
timely, actionable, relevant information, so that they can take 
steps to harden their infrastructure.
    Of course, we work very closely with the Department of 
Homeland Security on that as well. It is a mission that we try 
to tackle together, each of us with our own respective 
responsibilities.
    Senator Collins. Thank you. I think that communication with 
the private sector in both directions is absolutely critical, 
so that you can share threat information, malicious software 
signatures.
    There was a DOD study with defense contractors that did 
that, and people were amazed to find that they did not have the 
same information. So I think that can be valuable.
    Thank you, Mr. Chairman.
    Senator Moran. Thank you, Senator Collins.
    The Senator from California, Senator Feinstein.

                             USA GYMNASTICS

    Senator Feinstein. Thanks very much, Mr. Chairman.
    Director, I wanted to ask you one question on the Larry 
Nassar case. Last year, the Senate Judiciary Committee held a 
hearing on abuse within Olympic sports. Two survivors testified 
about being abused by Dr. Nassar. He is taken care of.
    What is troubling to me is, last week, a gold medal 
Olympian came in and spoke to the Chairman of the Judiciary 
Committee and myself to say that she reported abuse to a 
specific local office, which I will give you privately, that 
she had suffered abuse, and nothing was done about it. She 
tried for a year with the FBI in that office and then gave up.
    So the question I have is, has the FBI been instructed to 
take these complaints seriously and promptly respond to women 
making them? Because I am really concerned about it. These are 
all young women, and they deserve an investigation.
    Director Wray. Senator, I share your concern. My heart goes 
out to the victims of Dr. Nassar.
    As I think I might have mentioned earlier in the hearing, 
once I heard that there were questions about the stuff that had 
happened in 2015 and 2016, I commissioned an internal deep-dive 
by our Inspection Division to do a full after-action report to 
figure out what we did in all the different offices that might 
have been involved, what we did not do, and what lessons we can 
learn.
    I have not gotten the results of that yet. It is still 
ongoing. But I intend to make sure that, if there were mistakes 
made, we learn from those mistakes.
    Senator Feinstein. Thank you. And will you share that study 
with us?
    Director Wray. I would be happy to share the appropriate 
information with the subcommittee.

        NATIONAL INSTANT CRIMINAL BACKGROUND CHECK SYSTEM (NICS)

    Senator Feinstein. Another question, following the murders 
of the nine churchgoers at Emmanuel AME in South Carolina in 
2015, the FBI admitted it did not properly obtain information 
regarding the gunman's drug arrest record, which should have 
prohibited him from buying a handgun. The FBI apparently had 
not completed its review within 3 days, so the dealer was 
legally permitted to complete the sale to the gunman. As we 
know, nine people died as a result.
    Are there instances where State records or other records 
cannot be physically obtained within a 3-day delay period by 
the FBI?
    Director Wray. I do not know if I can speak for all 50 
States on that. I have actually gone out to the National 
Instant Criminal Background Check System (NICS) in West 
Virginia and sat there and listened in on the earpieces, so I 
can actually hear what our folks do and what it is like to 
actually take one of these calls. We do try very hard to turn 
them around as quickly as we can, but we need to be right.
    I will tell you, you might be interested to know that, in 
the first 3 months of this year, we have had a record number of 
NICS checks.
    Senator Feinstein. A record number of?
    Director Wray. NICS checks per month each of those months.
    So we are doing a ton of work. That can always get better. 
I do know that some States, the way they keep the records in 
terms of what they reflect as a disposition, for example, on a 
prior arrest does not necessarily fit as well in our system, so 
it takes more work to kind of drill down and understand. It 
gets really obscure, but it depends on which subsection of the 
code as to whether it is actually a prohibitor or not and 
things like that. So we are always getting better.
    Senator Feinstein. Do you think the 3-day provision should 
be eliminated?
    Director Wray. I would have to look at the implications of 
that.
    Senator Feinstein. Okay, would you look and just give us a 
recommendation one way or another.
    Director Wray. I would be happy to tell you what I think 
the operational impact of that would be.
    Senator Feinstein. Good.
    You say in your written testimony that, ``Domestic violent 
extremist movements collectively pose a steady threat of 
violence and economic harm to the United States.'' That is a 
quote.

                     HATE CRIMES/DOMESTIC TERRORISM

    In 2015, the FBI reported that there were 5,850 incidents 
of hate crimes, and specific offenses against Muslims grew 67 
percent from 2014.
    Given this tremendous increase, what is the FBI doing to 
increase its investigative resources related to hate crimes?
    Director Wray. Well, we have dedicated units that focus on 
civil rights offenses, including hate crimes. Also, we find 
with some frequency that hate crimes and domestic terrorism--
and I think the reference that I was making that you are 
referring to was intended to speak about domestic terrorism, 
which may or may not, depending on the instance, be the same 
thing as a hate crime. So our Joint Terrorism Task Forces 
(JTTFs) make that a principal area of focus.
    And we have, ironically, about the same number of domestic 
terrorism investigations, which is about a thousand, as we do 
homegrown violent extremists. And that covers the waterfront, 
though, all the way from white supremacist investigations all 
the way to anarchist investigations and pretty much everything 
in between.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Senator Moran. Thank you, Senator Feinstein.
    The Senator from Arkansas, Senator Boozman.
    Senator, I would tell you, before you arrived, we are close 
on time. I would encourage you, if you are going to ask 
questions, to stay within the 5 minutes. We have Senator Coons, 
Senator Van Hollen----
    Senator Boozman. I will do whatever you tell me to do 
today.
    [Laughter.]
    Senator Moran. The Senator is recognized.
    Senator Boozman. Thank you very much.
    Thank you, Director, for being here. We really do 
appreciate your hard work. I know Senator Collins has already 
asked about it, so I am not going to ask again about 
cybersecurity, and how important that is. I think all the 
subcommittee shares that thought. Anything we can do to help 
you in that regard, we will.

                           CHILD EXPLOITATION

    One of the issues in your testimony that you touched on was 
child exploitation. As you know, the Department of Homeland 
Security also was very interested in that. Can you talk about 
your abilities to work together? Are you working together?
    Director Wray. We do work together on those issues. We have 
Task Forces specifically focused on child exploitation, child 
pornography, and different kinds of sexual crimes focused on 
children. I think Homeland Security makes a great partner on 
that. Both of us rely very heavily on State and local law 
enforcement, because it requires that, too.
    There is also a role, I think, for victim services because 
these are unusually difficult cases, just given the nature of 
the victim population. We have something called Innocence Lost, 
which is an initiative of ours. It is intelligence-driven. It 
is kind of focused on trying to make sure we have the maximum 
impact. And, of course, the role of cyber, as you mentioned, in 
your other topic becomes inextricably intertwined with that.

                                  NICS

    Senator Boozman. I also would like to ask a little bit 
about NICS in the sense that we have Arkansans that, for one 
reason or another, maybe they have similar names, have wound up 
in a situation where they have been denied and then want to 
appeal. The backlog on that is great right now.
    Can you talk to us a little bit about how you are trying to 
address that?
    Director Wray. Certainly, the resource constraints that we 
have at NICS are significant. As I mentioned, we had a record 
number of checks the first 3 months of this year. We try very 
hard to make sure that we do not have delays within the time 
period allowed.
    In my experience, the vast majority of calls can be dealt 
with in the same phone call. As I mentioned, I wanted to kind 
of see what it is like to be out there in person, so I actually 
went out to West Virginia and sat in the call center, put 
earpieces on, and actually listened to an operator doing a few 
of these.
    Some of them can be greenlighted right there on the call. 
Some of them can be denied right there on the call. A lot of 
them require a little more work, which I think usually can be 
done within the time period allowed.
    Senator Boozman. Very good. That would be a nice place to 
go visit. Maybe we will get an opportunity to do that.
    I yield back, in an effort to accommodate my colleagues.
    Senator Collins [presiding]. Thank you. It is great being 
Chairman, however briefly.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Senator Collins.
    Director Wray, thanks for being here, and thank you to the 
men and women of the FBI for helping protect our country.

                            FBI HEADQUARTERS

    You say in your testimony that it is important that the FBI 
have a new headquarters. You talked about the current condition 
of the J. Edgar Hoover Building. I must say, for those of us 
who have been following this process for many years, we have 
gotten whiplash when it comes to the FBI building.
    Let me read to you from a 2016 prospectus from the GSA that 
was put together after years of congressional input, GSA input, 
FBI input, congressional support. It said that the current 
building cannot be redeveloped to provide the necessary space 
and consolidate the FBI headquarter components or to meet the 
agency's physical security requirements. They go on to say very 
specifically that they looked at the idea of redeveloping the 
FBI building at its current site and said that it was not 
capable of meeting the security setback requirements.
    As you know, other major security facilities--CIA, NSA, 
Cyber Command--they are on campus settings with these large 
setbacks. Don't those large setbacks provide extra, enhanced 
security to the people who work in those places?
    Director Wray. Senator, obviously, security is extremely 
important not just to our folks but to me since I would have to 
work in the building. The proposal that we have on the table 
right now would allow us to get to a Level V security, much 
like our partners, say Scotland Yard and various others around 
the world who function like us.
    So we are comfortable that putting in place a new 
building--not renovating the old one but a brand-new building 
in that space--allows us to be able to kind of do both things, 
which is to take advantage of the location that we need but at 
the same time provide the security----
    Senator Van Hollen. Mr. Director, with all respect, you are 
going to have to convince me anyway that the reasons why the 
FBI and the GSA have rejected their earlier assessment that 
developing at the current site regardless of the configuration 
would provide adequate security. That is the same reason we 
have the CIA on a campus, that we have NSA on a campus.
    I have to go on, but it just does not compute that larger 
setbacks do not provide more security. So the question would be 
what kind of security you are willing to give up.

                                  ZTE

    Here is what I want to ask you. I want to go back to 
Senator Leahy's questions about ZTE and your earlier testimony 
before the Senate Intelligence Committee. My understanding is 
you maintain the same assessment today as before. Is that 
right?
    Director Wray. Yes.
    Senator Van Hollen. Just to put it bluntly, what was 
President Trump thinking when he tweeted out what he did about 
putting ZTE back in business?
    Director Wray. Senator, I cannot speak to what anybody else 
was thinking. I am not really a Twitter guy. What I will tell 
you is that we take very seriously our obligation to protect 
our national security, so we look at it through the lens of 
what kind of capacity providing a company that is beholden to 
another government that may not share our values----
    Senator Van Hollen. So the fact that you do not know what 
he was thinking tells me he did not consult with you or anyone 
at the FBI before he sent that out, did he?
    Director Wray. Well, I would not get into our discussions, 
but I would just say that my assessment----
    Senator Van Hollen. Well, no, that is not a discussion. No, 
come on. I mean, did the President reach out to you and the FBI 
before he sent out his tweet on ZTE? That is an important 
question.
    I mean, if he did, it suggests that he took into account or 
rejected your advice. I am just asking if the President asked 
you----
    Director Wray. I am not aware of any discussion of that 
sort.
    Senator Van Hollen. Do you know if ZTE has accessed U.S. 
trade secrets and provided them to the Chinese Government?
    Director Wray. I am sorry, could you repeat that?
    Senator Van Hollen. Do you know if there is any evidence 
that ZTE has accessed stolen U.S. trade secrets and provided 
them to the government?
    Director Wray. Senator, I am not sure there is anything I 
could say on that topic in this setting.

                           ELECTION SECURITY

    Senator Van Hollen. All right. My last questions really 
relate to what Senator Shaheen said. Your colleagues in the law 
enforcement community have indicated they expect that the 
Russians will interfere in the midterm 2018 elections, very 
much like they did before. When you testified back in February, 
you indicated that the President had not directed you or the 
FBI to take any additional actions to confront Russian 
interference.
    My question is, have you heard from the President on that 
issue since February? Has he directed you and the FBI to 
enhance your operations in preparation for midterm elections?
    Director Wray. Senator, we did in fact, as I think the 
White House has reported, meet. A group of us--me, the 
Secretary of Homeland Security, the Director of National 
Intelligence, the Attorney General, and others did meet with 
the President not that long ago where he emphasized the 
importance of protecting our election from foreign 
interference.
    Senator Van Hollen. All right, I am going to send you a 
written question regarding legislation Senator Rubio and I have 
introduced called the DETER Act.
    Thank you.
    Director Wray. Thank you, Senator.
    Senator Moran [presiding]. Thank you, Senator Van Hollen.
    The Senator from West Virginia, Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.

              CRIMINAL JUSTICE INFORMATION SERVICES (CJIS)

    Thank you, Mr. Director, for being here. I caught, just as 
I walked in, you talked about your visit to West Virginia. So 
that was going to be my first question, to talk about the CJIS 
Division in Clarksburg, the great work that they are doing 
there not just on the NICS system but on a lot of the 
background checks, et cetera.
    I did not know if there was anything you wanted to add 
about that facility. Obviously, we are very proud of it in West 
Virginia and the good work that is done there.
    Director Wray. I would be happy to. I really enjoyed my 
visit out there. All I had really covered so far about what is 
out there are questions about NICS.
    Of course, as you know, there is a lot of very important 
work being done out there, everything from the National Crime 
Information Center (NCIC) to the Uniform Crime Reporting 
Program (UCR), and the National Incident-Based Reporting System 
(NIBRS) that does the crime reporting statistics. There is just 
a lot out there, our Public Access Line that takes calls from 
the public.
    It is a thriving facility with great people working really, 
really hard. I was very impressed by what I saw out there.
    Senator Capito. Thank you. We are certainly glad you are 
there.

                            FBI HEADQUARTERS

    I would say, my cohort from Maryland, in talking about the 
headquarters, I understand that part of the plan on the 
headquarters remaining toward the downtown area would be to 
move some of the existing employees or maybe functions to other 
places, one of which was Clarksburg, I believe.
    Did you have any thoughts on that?
    Director Wray. For about a decade now, the FBI has been 
working on plans to move various functions and headcount out of 
the National Capital region, including not just Clarksburg but 
Huntsville; Pocatello, Idaho, on the IT side; and even 
Quantico.
    The new headquarters proposal that we have would 
significantly expand the number of people who would be in the 
headquarters building here. So it is a combination of things.

                         TASK FORCE OPERATIONS

    Senator Capito. Okay. As you are aware, State and Federal 
authorities successfully executed a widescale takedown 
operation of the Peterson drug trafficking organization in 
Huntington, West Virginia, and Detroit as part of Operation 
Saigon Sunset. As a result, the officers apprehended 90 
suspected drug suppliers and traffickers; 167 grams of cocaine; 
760 grams of heroin; 450 grams of fentanyl, which is enough to 
kill 250,000 individuals.
    I just want to thank you and your department and the 
coordinating aspects of what you have done with the U.S. 
attorney's office. I understand every law enforcement officer 
that was in any part of that area was a part of that.
    I just want to know, is this typical of what the FBI is 
doing around the country, in terms of being able to fortify 
those local resources to be able to catch these guys? Because, 
literally, they are killing our people.
    Director Wray. This is a huge priority for us. One of the 
things I have been trying very hard to do as Director is not 
spend all my time inside the beltway. I have been trying to get 
out. I am determined to try to get to all 56 of our Field 
Offices by the end of this year. I am making good headway.
    Every office I go to, there is incredible work being done 
by the men and women of the FBI on some of the same kinds of 
issues you are talking about. It never fails to give me an 
extra spring in my step. We could not do it, though, without 
our partners. That is the important piece. It is not just the 
FBI. It is us with DEA, ATF, HSI, and State and local partners, 
in particular.
    Key is that we have a lot of task force officers. We have 
about 500-and-something task forces, that is not even counting 
the Joint Terrorism Task Forces, and over 7,000 task force 
officers, which means officers from State and local law 
enforcement, for example.
    Through the resources this committee provides us, we are 
paying their overtime, their use of vehicles, et cetera. 
Frankly, if you looked at the number of task force officers 
that we work with every day in all of our field offices, there 
are actually more task force officers than there are agents on 
task forces. So they are a huge part of it. It is very much a 
team effort. We are grateful for their support.
    Senator Capito. I appreciate that. I think I stated 
earlier, we really could not do it without that leadership, 
without the expertise and technology and the intelligence and 
everything that comes along with the good men and women of the 
FBI. Thank you very much.
    Director Wray. And we could not do it without the 
subcommittee's support, frankly, because the threats, 
everywhere I go, somebody has some idea of something the FBI 
should do more of. I have not found very many people with good 
ideas of what the FBI should do less of yet. So we are 
stretched thin, but we are working hard with our partners.
    Senator Capito. We will be there to support you. Thank you.
    Director Wray. Thank you.
    Senator Moran. The Senator from Delaware, Senator Coons.
    Senator Coons. Thank you, Chairman Moran.
    Director Wray, it is good to be with you. I think we have 
known each other for about 25 years, and it is great to see you 
in this role, and I am grateful for what you and the terrific 
men and women of Federal law enforcement and, in particular, 
the FBI do week in and week out, their service, their devotion 
to the country, to the Constitution, and to the rule of law.
    You are literally the Federal cops on the beat, as you were 
just discussing with the Senator from West Virginia. You play a 
key part in making sure that not just Federal law enforcement, 
but Federal, State, and local law enforcement is highly 
effective. And you keep all Americans safe regardless of their 
political leanings, their backgrounds, their race, their 
religion or creed.
    When you took the oath last August, you took it to protect 
our Constitution, not to protect any individual or any party.

                           FBI EFFECTIVENESS

    I have to say, I am deeply troubled by recent baseless 
attacks on the FBI. Would you agree that the effectiveness of 
the FBI really depends on citizens, on witnesses, on juries, on 
State and local law enforcement all being able to have trust in 
the FBI?
    Director Wray. Senator, the people you just listed off are 
great examples of the opinions that matter to me most and that 
matter to our people most. There are a lot of opinions out 
there about the FBI, just like there are about everybody in 
this room. But the opinions that matter the most are the 
opinions of juries when our agents take the stand; the opinions 
of magistrate judges when our agents bring them a search 
warrant; the opinions of our State and local partners, if they 
trust us to work with them; our private sector partners; our 
community partners; judges; as I mentioned before, victims and 
their families, do they trust us? Those are the opinions of 
people who know us through our work, and those are the opinions 
that matter to me and to our people.
    Senator Coons. I hope that you do not find the opinions of 
some discouraging or dispiriting.
    This is National Police Week. We are all in our Nation's 
Capital honoring the men and women of law enforcement across 
the country. But we have seen, I think tragically, a series of 
public statements by President Trump suggesting that the 
investigation into Russian interference in the 2016 election is 
``a witch hunt.''
    He literally said last month, ``You look at the corruption 
at the top of the FBI, it's a disgrace.''
    Now, if this was just some stray comment, there is a wide 
range of opinions in our country, as you mentioned, we could 
dismiss it. But I am concerned it is beginning to have an 
impact.
    There was a poll of 1,500 Americans released last week by 
the Economist that said 7 percent of Democrats, 25 percent of 
independents, and 61 percent of Republicans said the FBI is 
framing the President with the Department of Justice.
    Let me repeat that: 61 percent of Republicans surveyed said 
the FBI and the Justice Department are framing the President of 
the United States.
    That seems to me directly opposite the care, the diligence, 
the professionalism, the dedication to rule of law that I have 
known in the men and women who I know in the FBI, in our field 
office in Delaware and here, in my service in the Senate.
    Director, can I just ask you, are the FBI and the 
Department of Justice in any way attempting to frame the 
President of the United States?
    Director Wray. Senator, the people that I work with every 
day, the people that I see every day inside the FBI, are 
committed to doing the right thing in the right way with 
professionalism, integrity, objectivity, and courage. So while 
I recognize that there are, as I said, a lot of opinions out 
there, we do not focus on polls and surveys and studies. We 
focus on, as I said, the opinions of people who know us through 
our work.
    What I find when I go out and talk to people in the field 
out on the frontlines, our partners, the judges, the 
prosecutors, the victims, the feedback I get uniformly is 
positive and supportive.
    Senator Coons. Should you come to visit the field office in 
Wilmington, Delaware, I think you will get exactly that same 
feedback. The FBI is a highly valued part of our local law 
enforcement community and a great contributor.
    There was a case just last month in Kansas where three men 
were convicted of plotting to blow up an apartment complex and 
mosque, and the FBI could disrupt this plot because an 
informant trusted the FBI. Jurors trusted the FBI, all the 
evidence it developed and brought forward, despite attacks on 
the FBI from the defense in that specific case.
    So I will just conclude on this point by saying that I 
think trust in the FBI is absolutely essential to the rule of 
law in our country. I did not mean to berate you on the point. 
I just think we cannot go without commenting on the fact that 
there is, in my mind, a steady erosion in confidence, and there 
is a cause of it, and I truly hope that the men and women of 
the FBI know that they have strong bipartisan support here in 
Congress.

                                  NICS

    Let me ask you a last question. My home community of 
Wilmington, as I know you know, has faced an epidemic of gun 
violence in recent years. We have had a lot of assistance from 
Federal law enforcement. One of the things we are trying to do 
is to make sure that we keep guns out of the hands of persons 
prohibited. That is why I joined with Senator Toomey to 
introduce the NICS Denial Notification Act, which requires the 
Federal Government to notify State and local law enforcement 
when a person prohibited fails a background check.
    Last year, the NICS section denied 104,000 firearm 
transactions where people who are prohibited by law attempted 
to buy.
    Do you think it would be helpful for Federal law 
enforcement to notify State law enforcement when someone 
prohibited from owning a firearm attempts to purchase one?
    Director Wray. Senator, obviously, we, like you, want to 
make sure we are keeping guns out of the hands of the wrong 
people--those who are prohibited by law from possessing them. 
And NICS denials are a key tool in that.
    I have not studied the bill that you are describing. We do 
feel very strongly about our need to work closely with State 
and local partners to share information. I would have to look 
at the operational impact of that. Obviously, there is always a 
balance. We all feel in today's world in law enforcement that 
we want more information, but we also get deluged with 
information. So we have to work through some of those issues.
    I will say, on Wilmington, as you may know, the Task Force 
that we have had working there, I think there has been a 71 
percent drop in gun crime in the last year.
    Senator Coons. We are very hopeful. Summer is just getting 
started. We are hoping that trend will hold.
    Director Wray. We had an arrest just yesterday, actually, 
there on a kidnapping, murder charge related to one of the big 
gangs in Wilmington.
    Senator Coons. You did. I will forward you the bill. Thank 
you for your indulgence.
    Thank you very much for your service.
    Senator Moran. The Senator from Alaska, Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I will be 
brief, because I know we have a vote that has begun.
    Director Wray, thank you for being here. Thank you for what 
you do. I want to just reassure that I join with the Senator 
from Delaware and the Senator from West Virginia, my support 
for the good work that the men the women of the FBI deal with 
every day.
    I certainly have had my differences with the FBI over the 
years, particularly as it related to the handling of former 
Senator Stevens' investigation. I am still not satisfied that 
the agency properly investigated the whistleblower who called 
attention to the misconduct in the investigation and the 
prosecution. But I want to make very clear, I have not lost 
faith in the FBI as an institution.
    I had an opportunity just a few months back to meet with 
the special agent in charge in Anchorage and his senior team to 
convey the point directly, to get an update from all of them, 
to look them all in the eyeball and just let them know that we 
have great faith in the work that they do. And it is hard, and 
it is difficult.
    And we worry, I worry, about the morale of the men and the 
women for some of the same reasons that you have heard here 
today. I hope that the message that you convey back to them is 
that we need them to do the jobs that we have tasked them to 
do. We respect the work that they have in front of them. I was 
able to share my direct thanks.
    I wanted to speak just very quickly to the issue that is 
really front and foremost in the minds of many people in 
Anchorage and around the State. Our State has been dubbed the 
most dangerous in the country, Anchorage as one of the more 
dangerous cities. You do not think about that when you think 
about Alaska, but the homicides on a per capita basis have put 
us in a category of notoriety that we do not seek, and we must 
address, and we must change.
    We are seeing so much of this because of the drug violence 
that is coming with the trafficking that we are seeing. We are 
looking forward to what this high-intensity drug trafficking 
area program will bring to the area with some additional 
Federal resourcing. So any increased attention that we are able 
to receive when it comes to resourcing is pretty important, 
because we feel like we are at the end of the road there.
    But I would ask your senior team to look at whether Alaska 
is being appropriately resourced to meet the Federal law 
enforcement needs in the State, and brief my office on the 
findings, specifically to coordinate with--we have a great U.S. 
attorney up there. We have strong troopers. We need more of our 
troopers. Our police chiefs are maxed.
    But it is really when all the partners come together that 
we are able to make some headway, and we capitalize on the 
resources that are made available.
    So I would just ask your folks to take a look at that 
situation in Alaska, because, again, it has come on in 
unprecedented levels and at a time and a pace that is alarming 
to us.
    Director Wray. I would be happy to take a closer look at 
it. We have a great Special Agent in Charge up there, as you 
mentioned.
    I do think, in general, these issues are going to be solved 
or mitigated through a combination of partnerships, as you 
alluded to, and intelligence partnerships meaning: How can we 
figure out how all the different players, the feds, FBI, the 
different Federal agencies, State and local agencies, can 
somehow get their 2-plus-2 to equal more than 4? In other 
words, how do we get synergies between them to maximize the 
impact? And the High Intensity Drug Trafficking Areas (HIDTA) 
designation that you described is part of that.
    And then intelligence, meaning let's figure out what is 
really driving the problem and focus the resources on impact. I 
think all too often historically in law enforcement people 
focus just on stats of number of arrests, et cetera, without 
necessarily taking that next step to figure out if you are 
really addressing the core driver of the problem. Each city has 
its own unique idiosyncrasies.
    We have gotten, I think, a lot better and, hopefully, can 
bring more to the table with our Intelligence Analysts to try 
to understand better what is it that is causing that spike that 
you are talking about in Anchorage.
    Senator Murkowski. Good. We look forward to working with 
you. Thank you for your leadership.
    Thank you, Mr. Chairman.
    Senator Moran. Senator Murkowski, thank you very much.
    Director, thank you very much for your testimony today, to 
this point.
    I want to take a moment to reassure you and the people that 
you lead, but, more importantly, the American people, that we 
will do everything that we can as members of this subcommittee, 
as appropriators, and as United States Senators to see that the 
bureau is equipped to prevent and combat an ever-changing 
landscape both here and abroad of criminal activity that can be 
and has been very devastating to the American people.
    We will take our responsibilities very seriously, and I 
look forward to developing a very close working relationship 
with you in that regard. And I appreciate the partnership that 
exists between the FBI and other Federal agencies, but 
particularly those agencies back home, my local and State law 
enforcement officials.
    We have had significant success. I can name three off the 
top of my head just in the last few months in Kansas as a 
result of that partnership between the FBI and local law 
enforcement. So we are very grateful to you and to the men and 
women that you lead.
    We are going to recess. My script says it is brief, but it 
will probably be longer than ``brief.''

                     ADDITIONAL COMMITTEE QUESTIONS

    But with no further questions, this afternoon's open 
hearing is concluded. Senators may submit additional questions 
for the official record. We request the FBI's response within 
30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to Hon. Christopher A. Wray
               Questions Submitted by Senator Jerry Moran
 national bioforensic analysis center (nbfac): dhs owned facility used 
     by fbi for bioforensic analysis--new cost sharing arrangement
    Question 1. I understand that the FBI uses the National Bioforensic 
Analysis Center (NBFAC) for research and investigatory purposes. While 
the FBI is the main user of this facility, the lab itself is actually 
owned by the Department of Homeland Security. In order to avoid closure 
and maintain facility operations, the Bureau is considering sharing 40 
percent of the NBFAC's expenses and operating costs with DHS.

          1a. What is the nature of this agreement, including the work 
        the FBI performs in this facility, and the importance of 
        maintaining operations?

    Answer. Since its inception in 2004, NBFAC was funded and operated 
by the Department of Homeland Security (DHS) and co-located with the 
Biological Threat Characterization Center (BTCC) in the National 
Biodefense Analysis and Countermeasures Center (NBACC) at Fort Detrick, 
Maryland. The NBFAC is a unique United States Government asset that 
permits the analysis of biological threat agents, including dangerous 
infectious agents and toxins, and examines traditional forensic 
evidence contaminated with biohazardous materials (e.g., fingerprints, 
trace evidence, documents, photographs, etc.). It is the only facility 
within the United States that can conduct these types of forensic 
analyses and examinations of biohazardous evidence. The NBFAC's 
capability ensures that the government is provided with high-quality, 
defensible, actionable results within hours or days instead of months 
or years, which was commonplace prior to the establishment of the 
NBFAC. Discontinuing operations would eliminate over 10 years of 
investment and progress in building a forensic analytical capability 
established to serve both law enforcement and the Intelligence 
Community in the examination of hazardous biological agents.
    At the direction of the OMB, the FBI entered into a Memorandum of 
Agreement (MOA) to establish a cost-sharing agreement whereby the FBI 
provides 40 percent of the funds necessary for the operation of the 
NBACC. This MOA establishes the FBI as the responsible party for the 
operational activities of the NBFAC portion of the NBACC, while DHS 
retains its operation of the Biological Threat Characterization Center 
and the operation and maintenance of the NBACC building.

          1b. Would it be more efficient for the FBI to own this 
        facility itself and, if so, what would you expect the upfront 
        and annual costs to be?

    Answer. The FBI has not been asked to assume sole responsibility of 
the facility, and therefore, cannot provide a breakout of assumed 
costs.

          1c. Finally, is this cost sharing arrangement included in the 
        Bureau's budget request? Do you have sufficient resources to 
        shoulder this agreement? Will the cost of NBFAC impact other 
        aspects of FBI operations?

    Answer. The fiscal year 2019 request was formulated before the 
Bipartisan Budget Act of 2018 was passed. As a result, the fiscal year 
2019 request does not include any program increases for NBFAC. The FBI 
will attempt to minimize significant impacts to operations and will 
also work with other members of the biodefense community to develop a 
more expansive customer base and thus, offset overall costs.
     counterterrorism: fbi's growing mission--response v. position 
                               reductions
    Question 2. Threats facing our Nation, both foreign and domestic, 
are evolving rapidly.

          2a. What are the type of threats we are facing and how do 
        they affect the growing mission of the FBI?

    Answer. Preventing terrorist attacks remains the FBI's top 
priority. The terrorism threat to the United States remains persistent 
and acute. From a threat perspective, we are concerned with three areas 
in particular: (1) those who are inspired by terrorist propaganda and 
act out in support; (2) those who are enabled to act after gaining 
inspiration from violent extremist propaganda and communicating with 
members of foreign terrorist organizations who provide guidance on 
operational planning or targets; and (3) those who are directed by 
members of foreign terrorist organizations to commit specific acts in 
support of the group's ideology or cause. Prospective terrorists can 
fall into any one of these three categories or span across them, but in 
the end the result is the same--innocent men, women, and children 
killed and families, friends, and whole communities left to struggle in 
the aftermath.
    Currently, the FBI views the Islamic State of Iraq and Syria and 
homegrown violent extremists as the main terrorism threats to the 
United States. Additionally, domestic violent extremist movements 
collectively pose a steady threat of violence and economic harm to the 
United States. As the threat to harm the United States and United 
States interests evolves, the FBI must adapt and confront these 
challenges, relying heavily on the strength of our Federal, State, 
local, and international partnerships. The FBI uses all necessary 
lawful investigative techniques and methods to combat these terrorist 
threats to the United States.

          2b. I am concerned by the Bureau's proposal to cut 500 
        positions in the fiscal year 2019 request, especially given 
        that they are from the Intelligence; Counterterrorism and 
        Counterintelligence; Criminal Enterprise and Federal Crimes; 
        and Criminal Justice Services Divisions. The FBI must be good 
        stewards of taxpayer dollars while having adequate resources to 
        support its growing mission and responsibilities. Can you 
        explain the proposed cuts included in the fiscal year 2019 
        request, addressing both the necessity and rationale?

    Answer. As previously referenced, the fiscal year 2019 request was 
formulated before the Bipartisan Budget Act of 2018 was passed. As a 
result, the fiscal year 2019 request reflects a decrease of $158 
million. However, the FBI received significant increases in the fiscal 
year 2018 Appropriations to combat counterterrorism and 
counterintelligence, opioids, human trafficking, cyber intrusions, 
child exploitation, and surveillance, which must be sustained.
                                fix nics
    Question 3.

          3a. The Fix NICS Act was included in the 2018 Omnibus. What 
        are the actions the FBI is taking to implement the Fix NICS 
        Act?

    Answer. The FBI has implemented the requirement to process appeals 
within 60 days of receiving the appeal. The FBI has provided guidance 
to the Point-of-Contact (POC) States regarding the adherence to the 
requirement under the Brady Handgun Violence Prevention Act of 1993 for 
processing appeals within the mandated timeframe.
    Additionally, the FBI customized individual teleconferences with 
the States to raise awareness for reporting arrests to State 
repositories, relay the importance of submitting mental health records, 
provide support to the States in this endeavor, and to gain vital 
information from the States regarding their arrest and disposition 
reporting practices. Invitations were sent to the State CJIS Systems 
Officers (CSO), State Compact Officer (SCO), State Identification 
Bureau (SIB) Head, and NICS POC in each State to participate in their 
individual teleconference. Ten teleconferences a week were completed 
from April 9, 2018, through June 1, 2018. Only four United States 
Territories have not responded to their invitation, and the NICS 
Section is awaiting their response to schedule their teleconference. 
Additionally, the FBI is performing research to identify dispositions 
missing from criminal history records. Discussions are ongoing with the 
U.S. Courts and U.S. Attorney's Offices to develop a process for the 
electronic submission of dispositions.
    The FBI also continues to coordinate with Federal agencies; since 
November 2017, eight new Federal agencies began submitting information 
to into NICS indices.

          3b. The Fix NICS Act was included in the 2018 Omnibus, which 
        passed after the FBI submitted its fiscal year 2019 budget 
        request. Do you anticipate that the implementation of this Act 
        will create new resource needs? If so, what are they?

    Answer. The FBI has and continues to identify solutions to automate 
and streamline appeal-related processes. The NICS Section is cross-
training staff and taking advantage of other personnel resources to 
support the NICS mission. The Fix NICS Act includes a provision for the 
correction of erroneous system information within a 60-day timeframe 
from the date of receipt of information from an appellant for 
correction of erroneous information on a denied transaction.
    Prior to the passage of the Fix NICS Act, there was no timeframe to 
complete an appeal after receiving information to correct an erroneous 
record on a denied transaction; therefore, implementation of the Fix 
NICS Act requirement to adjudicate appeals within 60 days of receipt 
could create resource challenges. The FBI has realigned resources to 
ensure it is processing appeals within the 60 day mandate.
    In addition, the FBI will be conducting analysis to determine if 
every Federal agency has achieved benchmarks established in their 
implementation plans. This would require additional personnel and/or 
resources than what is currently dedicated. FBI resources would also 
need to be made available to Federal Departments or agencies that need 
technical assistance with compliance.
    Further, the FBI will be required to provide training and technical 
assistance to all States.

          3c. Finally, I understand that complete case records are 
        often not included in the NICS system. Is there a way, either 
        through implementing Fix NICS or otherwise to further 
        incentivize State and local partners to update records in the 
        NICS system, and include the final disposition of cases, 
        following the initial report of an arrest?

    Answer. The FBI relies upon the collaboration and cooperation of 
agencies nationwide to submit information on prohibited individuals. 
With the passage of the NICS Improvement Amendments Act of 2007 (NIAA), 
incentives were put in place to encourage local, State, and Tribal 
agencies to make eligible records available for NICS purposes through 
NICS Act Record Improvement (NARIP) grants. Likewise, the NIAA required 
Federal agencies to make relevant records available to the NICS. The 
National Criminal History Improvement Program (NCHIP) grant incentive 
also provides support to States for efforts to update records. The 
passage of the Fix NICS Act in March will further enhance these 
efforts. It requires States to provide an implementation plan by March 
2019 with benchmarks for improvements as a needs assessment. This will 
further enhance the Department's efforts to identify obstacles in 
making complete records available to the NICS and what others steps can 
be taken to support State partners.

          3d. What other actions is the Bureau taking to resolve this 
        problem?

    Answer. The list below describes steps the FBI is taking and has 
taken to encourage States to make available potentially prohibiting 
information for NICS determinations:

  --Provide electronic interfaces for the ease and automation of record 
        sharing;
  --Provide detailed information, education, and liaison support to 
        help agencies detect which records their agencies possess that 
        would be of specific interest to the NICS;
  --Provide regular and detailed reporting of records housed within the 
        various databases of the FBI that each agency has submitted. 
        These reports provide agencies a self-auditing tool that 
        support the detection of missing records and/or incomplete 
        data;
  --The FBI staff are asked to speak at and support meetings and 
        conferences nationwide. Subject matter experts support the 
        efforts of State partners in making relevant records available 
        at the national level;
  --The FBI provides annual criminal history dashboards to agency 
        contacts. Each dashboard provides information about the number 
        of arrests on file in the FBI's Next Generation Identification 
        (NGI) System, as well as the number of arrests with and without 
        final disposition data;
  --The FBI requests that agencies perform self-audits to identify gaps 
        in providing arrests and subsequent disposition information to 
        the NGI;
  --The FBI provides reports to requesting agencies containing arrests 
        with missing dispositions that are older than a year. This 
        supports a continuous self-auditing tool;
  --The FBI has dedicated staff performing research to assist in the 
        location of missing dispositions, which the FBI then uses to 
        update criminal history records in the NGI;
  --The FBI has dedicated liaison teams who specialize with the 
        applicable databases searched by the NICS. They provide regular 
        and ongoing support to record-owning agencies and contributors 
        with the identification, submission, and maintenance of data 
        and records;

    The FBI created a Disposition Task Force in 2009 and continues 
through today to collectively pursue methods to enhance disposition 
reporting.
             cyber security--threats and current assessment
    Question 4. In the Director of National Intelligence's (DNI) 
Worldwide Threat Assessment, Cyber Security is again listed as the Top 
National Intelligence Priority. The FBI is the lead Federal agency for 
investigating cyber-attacks by criminals, adversaries, and terrorists.

          4a. What are the threats we are currently facing and the 
        actions the Bureau is taking to combat them, including the 
        Bureau's ``Going Dark'' efforts?

    Answer. The country faces cyber threats from sophisticated 
cybercriminals, cyberterrorists, and state-sponsored actors. The FBI 
has seen a rise in ``blended threats,'' which are hybrid threats of 
nation states working in tandem with criminal actors to target the 
United States, its businesses, and its people. The Yahoo! Investigation 
is a recent example of this blended threat. FSB officers had protected, 
directed, and paid criminal hackers to collect information through 
computer intrusions in the United States and elsewhere. Similarly, in 
the Mabna Investigation, nine Iranians were charged with conducting a 
massive cyber theft campaign against educational, private, and 
government institutions on behalf of the Islamic Revolutionary Guard 
Corps. These individuals were each leaders, contractors, associates, 
hackers-for-hire, or affiliates of the Mabna Institute, an Iran-based 
company.
    The United States also faces the significant issue of threats to 
Critical Infrastructure. Cyber attacks against the energy sector can 
cause significant disruptions or damage to the industrial control 
systems/supervisory control and data acquisition (ICS/SCADA) systems. 
Advanced persistent threat (APT) actors can harvest credentials and 
establish persistence on victim energy sector networks with the intent 
to develop cyber-attack capabilities or cause energy service 
disruptions during conflict. Similar APTs exist targeting the 
telecommunications and financial services sectors.
    One of the most significant challenges to the FBI's ability to 
access investigative data is the ``Going Dark'' problem. ``Going Dark'' 
describes circumstances where the government is unable to obtain 
critical information in an intelligible and usable form (or at all), 
despite having a court order authorizing the government's access to 
that information. The problem impacts a range of issues, including: 
data retention; anonymization; provider compliance (or absence 
thereof); real-time communications; foreign-stored data; data 
localization laws; tool development and perishability; and other 
similar issues -Impacting the FBI's investigative and intelligence 
programs. Electronic communication service providers are increasingly 
implementing encryption in a manner to thwart court ordered government 
access to the content of communications. Counterterrorism and 
counterintelligence subjects are extensively using encryption 
technologies to conceal their communications and nefarious activities. 
Drug trafficking organizations are using anonymization and encryption 
technologies to obfuscate and expand their criminal interests; further 
contributing to the opioid crisis. Gangs, organized crime, human 
trafficking rings, and child exploitation offenders use anonymization 
and encryption technologies to inhibit investigative efforts to 
identify and prevent these horrific crimes. In an effort to address 
these Going Dark challenges, the FBI created a new Section (Cyber 
Operations Section) which will be responsible for computer network 
exploitation capabilities and enabling innovation.
    The FBI is open to all constructive solutions that seriously 
address the public safety issues. We need a thoughtful and sensible 
approach, one that may vary across business models and technologies. We 
have a team devoted to explaining this challenge and are currently 
working with stakeholders to find a way forward.

          4b. The fiscal year 2019 request does not include any program 
        enhancements for cyber and other mission activities. Is the 
        Bureau adequately equipped to combat the growing number of 
        cyber-attacks?

    Answer. The FBI is committed to its mission of protecting the 
American people and will align resources to the highest priority 
threats, including cyber attacks, dangerous gangs and the opioid 
crisis.
    Virtually every national security threat and crime problem the FBI 
faces is cyber-based or facilitated. The FBI faces sophisticated cyber 
threats from state-sponsored hackers, hackers for hire, organized cyber 
syndicates, and terrorists. On a daily basis, cyber-based actors seek 
state secrets, trade secrets, technology, and the ideas of the American 
people--things of incredible value and of great importance to the 
conduct of government business and national security. They also seek to 
strike critical infrastructure and to harm the United States economy.
    The FBI is focused on the most dangerous malicious cyber activity: 
high-level intrusions by state-sponsored hackers and global organized 
crime syndicates, as well as other technically sophisticated attacks. 
FBI agents, analysts, and computer scientists are using technical 
capabilities and traditional investigative techniques--such as sources, 
court-authorized electronic surveillance, physical surveillance, and 
forensics--to fight the full range of cyber threats. The FBI also 
continues to actively coordinate with private and public partners to 
pierce the veil of anonymity surrounding cyber based crimes.
    The FBI is engaged in a myriad of efforts to combat these cyber 
threats, from improving threat identification and information sharing 
inside and outside of government to developing and retaining new 
talent, to examining the way the FBI operates to disrupt and defeat 
these threats. The FBI takes all potential threats to public and 
private sector systems seriously and will continue to investigate and 
hold accountable those who pose a threat in cyberspace.
                  fbi investigation of usa gymnastics
    Question 5. I chair the Senate Commerce Subcommittee on Consumer 
Protection, Product Safety, Insurance, and Data Security, which has 
oversight jurisdiction over Olympic and amateur sports through the Ted 
Stevens Olympic and Amateur Sports Act. Because hundreds of current and 
former athletes have come forward with accusations of abuse by 
individuals associated with their sports, my Commerce Subcommittee 
launched an investigation into the United States Olympic Committee 
(USOC), USA Gymnastics (USAG), and Michigan State's responses to the 
claims of sexual abuse of young athletes, which include the abuse 
inflicted by former sports doctor Larry Nassar. Documents obtained by 
my Commerce Subcommittee and outside reports indicate that the FBI was 
made aware of accusations against Nassar as early as July, 2015.

          5a. What is the FBI's role in investigating these crimes, and 
        did the Bureau share the reported accusations it received or 
        its own investigatory findings with State or local law 
        enforcement?

          5b. Did the FBI share the details of the accusations or its 
        investigatory findings with Michigan State prior to September, 
        2016? If not, why?

          5c. It has been reported that the FBI asked USA Gymnastics to 
        keep these accusations of abuse private, is that true? If so, 
        why?

          5d. Finally, what role do you see the FBI playing to protect 
        future athletes from abuse that may cross State jurisdictions 
        and what resources does the FBI need to fill this role?

    Answer to all portions of Question 5. Until an on-going review 
being conducted by FBI Inspection Division is completed, the FBI will 
not provide comment.
                                 ______
                                 
             Question Submitted by Senator Susan M. Collins
    Question 1.

          1a. As Chairman of the Senate Aging Committee, I have held 
        numerous hearings focused on scams and fraudulent schemes that 
        target our Nation's seniors. I'm pleased to see that the FBI is 
        directing people to the Aging Committee's website for 
        additional resources, including our Fraud Hotline. Seniors lose 
        an estimated $3 billion annually to financial exploitation, and 
        the perpetrators of these scams are sophisticated and ruthless. 
        The FBI initiated more than 200 cases involving financial 
        crimes against seniors in the last year, and it played an 
        important role in the elder fraud sweep recently announced by 
        the Attorney General that involved over 250 defendants and 
        losses of more than half a billion dollars. The Aging 
        Committee's own data show that recent arrests have had a real 
        impact on deterring scammers. How is the FBI directing 
        resources toward combatting these crimes, including by working 
        towards gaining more cooperation from countries where these 
        criminals are operating?

    Answer. Combatting elder fraud is a Department of Justice priority. 
As a part of the Department of Justice's elder fraud initiative, the 
largest coordinated sweep of elder fraud cases in history took place in 
February 2018. The cases involve more than 250 defendants from around 
the globe who victimized more than a million Americans, most of whom 
were elderly. The cases include criminal, civil, and forfeiture actions 
across more than 50 Federal districts. Of the defendants, 200 were 
charged criminally. In each case, offenders engaged in financial 
schemes that targeted or largely affected seniors. In total, the 
charged elder fraud schemes caused losses of more than half a billion 
dollars.
    Exceptional assistance from foreign law enforcement partners has 
amplified the effectiveness of the Department's initiative. The sweep 
in February 2018 benefited greatly from the work of the International 
Mass-Marketing Fraud Working Group (IMMFWG), a network of civil and 
criminal law enforcement agencies from Australia, Belgium, Canada, 
Europol, the Netherlands, Nigeria, Norway, Spain, the United Kingdom, 
and the United States. The IMMFWG is co-chaired by the United States 
Department of Justice and FTC, and law enforcement in the United 
Kingdom, and serves as a model for international cooperation against 
specific threats that endanger the financial well-being of each member 
country's residents.
    As the lead Federal criminal agency for the investigation of 
financial crimes, the FBI will continue to prioritize our efforts to 
protect all citizens, including our seniors, not only through law 
enforcement efforts, which are a large deterrent, but also through 
partnerships with other criminal and civil agencies. One of our main 
goals is to ensure we inform and educate the public on these criminal 
actors who seek to take advantage and swindle innocent victims of their 
hard earned savings.
    The FBI also works closely with our international partners to 
support investigations with an international nexus through our 63 Legal 
Attache offices around the world and through specific initiatives such 
as the recent Operation Wire Wire which addressed financial crimes in 
partnership with Nigeria.
    In a focused effort to combat elder fraud, the FBI will continue to 
work closely with the Department of Justice to ensure agents are 
trained to identify and investigate elder fraud schemes. The FBI has 
over 700 agents dedicated to addressing a variety of financial crimes, 
including many which affect the elderly. Currently there are over 6,000 
active financial crime investigations.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
             ongoing russian electoral interference in 2018
    Question 1. The FBI was among the 17 intelligence organizations 
concluding that Russian President Vladimir Putin ordered a multi-
pronged influence campaign aimed at sowing discord among the American 
electorate and helping to elect Donald Trump. Now we are just months 
away from the 2018 midterm elections.

          1a. What is the FBI's assessment about the threat of Russia 
        again trying to interfere in our elections? What is the FBI 
        doing to combat this interference, and what more needs to be 
        done?

    Answer. To ensure the FBI is positioned to protect our democratic 
processes in advance of the upcoming 2018 and future elections, we have 
undertaken numerous efforts in collaboration with partners in the 
United States and abroad. Notably, the FBI established the Foreign 
Influence Task Force in the fall of 2017 to identify and combat foreign 
influence operations targeting the United States.
    The FBI will continue to work with our United States Government and 
international partners to identify and disrupt, as appropriate and 
lawfully authorized, foreign activities aimed at interfering with our 
democratic process and will raise public awareness about the objectives 
and tactics of foreign adversaries seeking to influence the information 
environment.
    The FBI does not have any information suggesting Russia will cease 
its attempts to interfere with United States elections or to otherwise 
attempt to undermine public confidence in United States democratic 
institutions.
                                  zte
    Question 2. At the May 22, 2018, hearing, I asked you about the 
threat posed to our national security by the Chinese telecommunications 
company ZTE. You testified that you are ``deeply concerned'' about the 
threat posed by companies beholden to adversarial foreign powers, such 
as ZTE.

          2a. Given President Trump's order to the Commerce Department 
        to get ZTE ``back into [sic] business fast,'' \1\ will you 
        commit to conveying your concerns about ZTE to the National 
        Security Advisor or other White House officials as appropriate?
---------------------------------------------------------------------------
    \1\ https://twitter.com/realdonaldtrump/status/
995680316458262533?lang=en.

    Answer. As we've previously stated, Chinese firms such as ZTE and 
Huawei seek to gain access to critical United States telecommunications 
infrastructure through the sale of equipment, service agreements, 
acquisitions, and joint ventures. While these firms may be motivated in 
part by commercial interests, some of these transactions could give the 
government of China the capacity to exert pressure or control over 
United States telecommunications infrastructure, maliciously modify or 
steal information from government and corporate entities, and conduct 
undetected espionage against the United States Government and private 
sector interests.
    The FBI remains committed to informing the private sector and 
United States Government officials about these potential risks to 
national security and working with these stakeholders to assess the 
risk created by particular commercial relationships and ensure that 
these risks are factored into related decisions. We have also informed 
appropriate government agencies of specific risks.
               citizenship alone and threat of terrorism
    Question 3. I have asked several Trump administration officials 
whether they agree with a 2017 Homeland Security Office of Intelligence 
and Analysis report that found that citizenship alone is not a reliable 
indicator of terrorist threat. These officials, including your 
predecessor Director Comey and then-Secretary of Homeland Security John 
Kelly, told me they agree with the report's conclusion.

          3a. Do you agree that citizenship alone is not a reliable 
        indicator of terrorist threat?

    Answer. Yes, citizenship alone is not a reliable indicator of 
terrorist threat.
                                torture
    Question 4. I asked you at your confirmation hearing if 
waterboarding was torture and you said that it was. This question is 
more timely than ever because our President has talked about bringing 
back waterboarding and ``a hell of a lot worse.''

          4a. In your view, does a human being have a moral right not 
        to be tortured?

    Answer. As I have stated during previous congressional testimony, 
torture is illegal under Federal law. The FBI will not engage in 
torture.
                             budget request
    Question 5. The President's budget request reduces overall FBI 
funding by 5 percent, requests no funding for the new FBI headquarters, 
and requests a rescission of another $148 million in salaries and 
expenses.

          5a. How will these proposed cuts impact the FBI's ability to 
        meet its law enforcement, investigatory, and national security 
        mission?

    Answer. The fiscal year 2019 request was formulated before the 
Bipartisan Budget Act of 2018 was passed. As a result, the fiscal year 
2019 request reflects a decrease of $158 million from the 2018 enacted 
level for Salaries and Expenses. This Committee provided significant 
increases in the fiscal year 2018 Appropriation, including resources to 
combat terrorism, counterintelligence, opioids, human trafficking, 
cyber intrusions, child exploitation, and surveillance, which must be 
sustained.
                     stingrays/cell site simulators
    Question 6. In 2015, the Department of Justice issued guidance on 
the use of cell site simulators, also known as ``Stingrays,'' requiring 
a warrant to use this invasive technology.\2\ Federal law requires 
simulators to be operated with minimum interference to cellular 
service.\3\ But there have been reports that Stingrays may interrupt 
cellular service--including disrupting 911 calls. It is important that 
when the FBI seeks a court order for use of a Stingray, it fully 
informs the court about any interference this technology may cause.
---------------------------------------------------------------------------
    \2\ https://www.justice.gov/opa/pr/justice-department-announces-
enhanced-policy-use-cell-site-simulators.
    \3\ 18 U.S.C. Sec. 3124.

          6a. What data or information does the FBI rely upon to ensure 
        that its use of Stingrays generates ``a minimum of 
---------------------------------------------------------------------------
        interference''--as required by law?

    Answer. The FBI has developed law enforcement sensitive operational 
protocols and device configurations designed to permit the operation of 
cell site simulators (CSS) with a minimum of interference in accordance 
with our legal obligations under Title 18, United States Code, section 
3124. In developing the protocols and settings, the FBI has leveraged 
the expertise of engineers who have extensive experience in cellular 
networks. Decades of successful CSS use by the FBI and other agencies 
have validated the FBI's position with respect to minimizing the 
potential for interference.
                               encryption
    Question 7. The FBI is reportedly renewing a push for legal 
authority to force U.S. technology companies to build decryption tools 
into smartphones and other devices.\4\ I am concerned this sort of 
``exceptional access'' system would introduce inherent vulnerabilities 
and weaken security for everyone, but I am also concerned about what 
effects this will have on U.S. technology and those that use it.
---------------------------------------------------------------------------
    \4\ https://www.nytimes.com/2018/03/24/us/politics/unlock-phones-
encryption.html.

          7a. If we require U.S. device manufacturers to build 
        encryption ``backdoors'' into their products, won't that simply 
        harm our world-leading technology companies by encouraging 
---------------------------------------------------------------------------
        innovation elsewhere, like Germany or Finland?

    Answer. The FBI is not seeking to force companies to include 
specific technology mandates, sometimes wrongly referred to as 
``backdoors,'' into products and services, and we recognize and support 
the use of encryption to make Americans safer. However, the FBI does 
not view the encryption debate as a ``zero sum'' issue, where there is 
either total encryption that prevents anyone from accessing data for 
any reason or no encryption.

          7b. If we require U.S. technology companies to build 
        ``backdoors'' into their products, then what do you expect 
        Apple to do when the Chinese government demands that Apple help 
        it unlock the iPhone of a peaceful political or religious 
        dissident in China?

    Answer. As stated above, the United States does not seek 
``backdoors.'' While we cannot presume to know the details of the 
specific proprietary agreements between Apple and China in which China 
approved the sale of Apple products, it is important to note that the 
Chinese government's domestic law only permits the sale or use of 
products in China that use government-approved encryption technology. 
Any companies or individuals selling encryption products in China must 
first obtain the approval of the government, and to obtain that 
approval, legal requirements require companies to provide source code 
to computing and network equipment. Finally, China's anti-terrorism 
laws require all data related to Chinese users to be maintained on 
servers in China and companies to provide encryption keys to public 
security authorities, so China would not need Apple's assistance in 
unlocking their products.
                  border search of electronic devices
    Question 8. Senator Daines and I recently introduced legislation 
that would require the Department of Homeland Security to have at least 
reasonable suspicion when they search the electronic devices of 
Americans at an international border crossing. Current DHS policy 
allows DHS officers to conduct such searches for no reason at all, 
under the so-called ``border search exception'' to the Fourth 
Amendment's warrant requirement.

          8a. If the FBI were to conduct a search of an American's 
        electronic device at the border, what level of probable cause 
        or reasonable suspicion would Bureau policy first require?

    Answer. The FBI is required to follow the controlling legal 
authority in each Federal jurisdiction where the authorized 
investigative activity occurs.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                              mccabe memos
    Question 1. The Washington Post has reported that former FBI Deputy 
Director Andrew McCabe kept notes and wrote memos detailing his 
interactions with the President.

          1a. Is this accurate--did Mr. McCabe take contemporaneous 
        notes or write memos about his interactions with the President?

          1b. Will the FBI also provide Mr. McCabe's notes and memos?

    Answer. The FBI cannot confirm or deny the accuracy of the 
Washington Post's reporting because doing so may implicate an ongoing 
investigation.
                       torture report and the fbi
    Question 2. In 2014, the Senate Intelligence Committee's Study of 
the CIA Detention and Interrogation Program was completed and a copy of 
the full 6,700-page classified report was sent to parts of the 
executive branch, including the FBI.
    The Study is intended to be used broadly by those with appropriate 
clearances to ensure that the abuses documented in the Study would 
never be repeated.

          2a. Have you personally read the Study? If not, will you 
        commit to reading it?

          2b. Have other top-ranking FBI officials read the Study? If 
        not, will you ensure that the full, final Study is reviewed by 
        top FBI officials?

    Answer. I am familiar with the critical portions of the study, 
including the findings and conclusions. As I have stated during 
previous congressional testimony, torture is illegal under Federal law. 
The FBI will not engage in torture.
                   domestic violence crimes and guns
    Question 3. Individuals convicted of domestic violence abuse or who 
are subject to a protection order are supposed to be prohibited from 
possessing firearms or ammunition under Federal law.
    However, I understand that many domestic violence abusers are, 
nevertheless, able to buy guns. In 2013 and 2014, 30 percent of denials 
for misdemeanor crimes of domestic violence were issued after the 
prohibited abuser took possession of the firearm, because the 
background check was not completed in time.
    It is important for the FBI to partner with local law enforcement 
and domestic violence programs to reduce the number of firearms in the 
hands of domestic violence offenders.

          3a. What is the FBI doing to reduce firearm possession by 
        domestic abusers?

    Answer. The National Instant Criminal Background Check System 
(NICS) makes every effort to make Misdemeanor Crime of Domestic 
Violence (MCDV) determinations within three business days, before a 
firearm transfer is allowed under Federal law. Because the MCDV force 
element and relationship to victim may not be readily apparent in an 
automated record found during the NICS background check process, the 
NICS Legal Instruments Examiner (NICS Examiner) must reach out to 
external agencies to obtain this needed information. As a result, 
transactions involving a potential MCDV conviction are frequently 
delayed for further research. In order to be prohibiting, the NICS 
Examiner must determine the existence of a requisite qualifying 
relationship, as well as establish if the individual was convicted of 
an offense or subsection of an offense, which has an element of use or 
attempted use of physical force, or threatened use of a deadly weapon.
    The FBI continues to pursue initiatives that allow for accurate and 
complete information to be available to the NICS. With the passage of 
the NICS Improvement Amendments Act of 2007, Congress instituted 
incentives and requirements to assist local, State, Tribal, and Federal 
agencies in making eligible records available for NICS purposes. The 
FBI has long-standing relationships with record-owning agencies, and 
has collaborated with and advocated for record sharing. The FBI has 
numerous proactive measures in place to support agencies in the 
identification of lacking or missing information in the applicable 
databases searched by the NICS. The bulleted list below highlights a 
few specific measures the FBI has in place to address missing or 
incomplete records in the applicable databases searched by the NICS. 
Particular attention has been given to the criteria needed to identify 
disqualifying MCDVs, not only by the FBI, but by Federal agencies 
awarding grant money in support of record improvement.

  --Educational outreach to increase database records and final 
        dispositions, as well as the identification of other needed 
        pieces of information to support the immediate identification 
        of prohibiting information, such as relationship to victim, 
        statute, and subsection of the conviction;
  --The FBI provides annual criminal history dashboards to agency 
        contacts. Each dashboard provides information about the number 
        of arrests on file in the FBI's Next Generation Identification 
        (NGI) System, as well as the number of arrests with and without 
        final disposition data;
  --The FBI requests that agencies perform self-audits to identify gaps 
        in providing arrests and subsequent disposition information to 
        the NGI System;
  --The FBI provides reports to requesting agencies containing arrests 
        with missing dispositions that are older than a year. This 
        supports a continuous self-auditing tool;
  --The FBI has dedicated staff performing research to assist in the 
        location of missing dispositions, which the FBI then uses to 
        update criminal history records in the NGI;
  --The FBI has dedicated liaison teams who specialize with the 
        applicable databases searched by the NICS. They provide regular 
        and ongoing support to record-owning agencies and contributors 
        with the identification, submission, and maintenance of data 
        and records;
  --If an MCDV is established by the FBI and all the needed criteria 
        cannot be added to the appropriate criminal history record, a 
        record is added to the NICS Indices to support future 
        transactions. State users of the NICS have been likewise 
        encouraged to do the same.

    In addition, there are various tools available to contributors to 
indicate a person's ineligibility. For example, in the NCIC, a 
contributor could set a Brady Indicator within the protection order 
record, or a condition set by the judge that would immediately indicate 
a person's disqualification. Within the criminal history record, a 
contributor could be sure to post the specific section/subsection of 
the subject's conviction, post the relationship to victim information 
on the face of the record, or set the firearm's disqualification flag. 
All of these practices serve the immediate nature with which the NICS 
Section is intended to serve. The FBI has and continues to educate and 
promote these tools to all criminal justice partners.
                    handguns that fire rifle rounds
    Question 4. Over the past two decades, the gun industry has 
developed handguns that can fire rifle rounds, which can penetrate the 
standard body armor worn by law enforcement officers. This is 
extraordinarily concerning to our law enforcement officers and to 
everyday citizens.

          4a. Do you believe such handguns that can fire rifle rounds 
        represent a threat to law enforcement?

    Answer. Any handgun used in a crime of violence against law 
enforcement officers is a threat. These specific handguns--which fire 
traditional rifle caliber cartridges--are especially dangerous due to 
the high likelihood of the projectile penetrating traditional soft body 
armor. However, the FBI does not have the pertinent data to quantify 
the specific increased threat.

          4b. What is the FBI's plan to address this new type of 
        weapon?

    Answer. The concern is not the weapon but rather cartridge and 
subsequent projectile which a weapon fires. The FBI has long been 
focused on identifying cartridges which create the highest threats to 
FBI personnel. In identifying these threat cartridges, the FBI has 
invested heavily in ``rifle rated plates'' for issuance to our 
personnel. These plates greatly reduce the risk of armor penetration by 
rifle caliber rounds to the most vital areas.
    The FBI shares information on this threat with State and local 
authorities through established partnerships between the Training 
Division's Ballistic Research Facility (BRF) and the Academy's 
executive leadership programs.
                              hate crimes
    Question 5. While the FBI typically reports 7,000 to 10,000 hate 
crimes, the Bureau of Justice Statistics estimates that the true number 
may approach 300,000, approximately 30 times more.
    Unfortunately, the number of State and local law enforcement 
agencies reporting their hate crimes statistics to the FBI seems to be 
decreasing, with 500 fewer agencies reporting their data to the FBI 
between 2014 and 2015.

          5a. What do you intend to do to make it easier for local 
        agencies to report this crucial data to the FBI?

    Answer. The FBI is in the process of transitioning all law 
enforcement agencies (LEAs) to the National Incident-Based Reporting 
System (NIBRS) by January 1, 2021. Reporting via NIBRS will improve the 
quality, reliability, and accuracy of the data received from 
participating LEAs. NIBRS will also ease the ability for LEAs to report 
hate crime data as it is collected within the NIBRS record layout 
versus a separate record layout which is required for Summary Reporting 
System agencies.
    The FBI is actively participating in the Department of Justice's 
(DOJ) Hate Crime Enforcement and Prevention Initiative. This group is 
focusing on developing strategies for improving the hate crime data 
collection. One strategy developed is a plan to offer joint law 
enforcement officer (LEO) hate crime training throughout the country 
with the assistance of the FBI Civil Rights Unit (CRU). The FBI will 
assist the LEO participants in understanding the Federal hate crime 
laws and identifying bias-motivated incidents. Ensuring the officers at 
a crime scene, and/or officers interviewing the victim(s) have a full 
understanding of the events which occurred within a bias-motivated 
incident is essential to identify these crimes.
    There is also an additional focus on how LEAs report hate crime 
data to the FBI. To emphasize the importance and value of reporting 
hate crime data, the FBI is currently contacting State UCR Program 
managers, requesting that State-sponsored training conducted by the FBI 
is carried out within that managers' region. In addition, the FBI posts 
information about hate crimes on the publically available web site at 
<https://ucr.fbi.gov/hate-crime/>

          5b. What do you think would foster more accurate and complete 
        reporting from local police to the FBI?

    Answer. The FBI believes obtaining the commitment of local agency 
administrators to provide hate crime investigative training to their 
LEOs would foster more accurate and complete reporting. Many officers 
may not be aware of the signs to look for when investigating a bias-
motivated crime. Often times, a hate crime incident requires additional 
investigation to ascertain if the offense was motivated by the 
offender's bias against the victim. Instituting a hate crime point of 
contact or unit within the LEAs could also improve the reporting of 
hate crime incidents.
                white nationalism and online cyber-hate
    Question 6. During last year's Presidential election, the Anti-
Defamation League identified 2.6 million tweets that had anti-Semitic 
language, with nearly 20,000 tweets directed at 50,000 U. S. 
journalists.
    One Jewish reporter received threats over twitter, including a 
picture of her face superimposed on a corpse in a concentration camp. 
The photo included a message saying, ``Don't mess with our boy Trump, 
or you will be first in line for the camp.'' This type of cyber-hate 
has targeted other minority communities as well, including Muslim and 
immigrant communities.

          6a. What steps is the FBI taking to address the rise of these 
        threatening messages and prevent them from leading to actual 
        hate crimes?

    Answer. Hate crimes are the highest priority of the FBI's Civil 
Rights program, not only because of the devastating impact they have on 
families and communities, but also because groups that preach hatred 
and intolerance can plant the seed of domestic terrorism here in our 
country. As part of its responsibility to uphold and protect the civil 
rights of the American people, the FBI takes a number of steps to 
combat hate crimes. The Bureau investigates hundreds of these cases 
every year and works to detect and deter further incidents through law 
enforcement training, public outreach, and partnerships with a myriad 
of community groups.
    The FBI is the lead investigative agency for criminal violations of 
Federal civil rights statutes. The FBI works closely with State/local/
Tribal authorities on investigations, even when Federal charges are not 
brought. FBI resources, forensic expertise, and experience in 
identification and proof of hate-based motivations often provide an 
invaluable complement to local law enforcement.
    The FBI has forged partnerships nationally and locally with many 
civil rights organizations to establish rapport, share information, 
address concerns, and cooperate in solving problems. Additionally, the 
majority of the FBI's field offices participate in local Hate Crime 
Working Groups. These Working Groups combine community and law 
enforcement resources to develop strategies to address local hate crime 
problems.
    The FBI conducts hundreds of operational seminars, workshops, and 
training sessions annually for local law enforcement, minority and 
religious organizations, and community groups to promote cooperation 
and reduce civil rights abuses. Each year, the FBI also provides hate 
crimes training for new agents, hundreds of current agents, and 
thousands of police officers worldwide.

          6b. Is the FBI working with social media companies to take 
        down these types of messages and posts?

    Answer. The mission of the FBI's Civil Rights program is to enforce 
Federal civil rights statutes and to ensure the protected rights of all 
persons are not violated. This requires a delicate balance between the 
enforcement of hate crimes statutes and a rigorous obedience to the 
Constitution of the United States.
    A hate crime is defined as a criminal offense against a person or 
property motivated by the individual's bias against race, religion, 
disability, ethnic/national origin, sexual orientation, gender, or 
gender identity. The FBI must pursue its legitimate investigative goals 
without infringing upon the protected exercise of free speech. In the 
absence of an allegation of a violation of Federal law, the FBI cannot 
pursue investigative activities. When a message or post sent via social 
media rises to the level of a true threat as defined by the Supreme 
Court of the United States, that is, when a message communicates a 
serious intent to commit an act of unlawful violence against an 
individual or group, based on the aforementioned protected classes, the 
FBI can initiate a hate crime investigation. In the course of that 
investigation, the FBI may request a social media company preserve the 
threatening post as evidence. A post containing a threatening message 
sufficient for the FBI to open a hate crime investigation would likely 
also violate the terms of service of any established social media 
company.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                 foreign meddling in american elections
    Question 1. Since the Citizens United decision, our campaign 
finance system has been inundated with dark money, or funds donated to 
entities that may conceal the identities of donors, which are in turn 
spent to influence our elections. Now, it has been reported that the 
FBI is investigating allegations that malign Russian interests have 
used our broken campaign finance system to conceal allegedly illegal 
campaign finance activity with the aim of influencing American 
elections.

          1a. What legal or institutional obstacles exist that could 
        frustrate law enforcement officials' ability to identify all 
        beneficial owners or other participants in a scheme to funnel 
        foreign money into the American campaign finance system?

    Answer. Companies founded under section 501(c)(4) of the Internal 
Revenue Code are not required to disclose their donors to the Internal 
Revenue Service and can accept unlimited contributions without 
disclosing the source of funds. 501(c)(4) and limited liability 
companies (LLC) can then be used to make political expenditures 
themselves or donate to Super PACs, potentially influencing elections 
while avoiding the required transparency of campaign finance laws, 
which increases the risk that they can be used illegally to funnel 
foreign money into U.S. Federal elections.

          1b. In the course of investigating criminal foreign election 
        meddling, would law enforcement benefit from greater 
        transparency as to the identities of all persons behind 
        transfers of otherwise dark money in the American campaign 
        finance system?

    Answer. Adding transparency laws to common non-profit schemes 
utilized by dark money brokers would allow law enforcement to more 
easily identify potential foreign influence schemes by forcing the 
identities of sources of funds to be disclosed.
                                 ______
                                 
            Questions Submitted by Senator Chris Van Hollen
    Question 1. What specific actions has President Trump directed you 
to take to investigate and confront Russian interference in future U.S. 
elections, including to prevent Russian cyber-attacks on voting 
infrastructure and State-sponsored disinformation efforts through 
media?

          1a. Has the President taken actions sufficient to deter 
        Russian interference in future U.S. elections?

    Answer. The FBI has undertaken numerous efforts in collaboration 
with our counterparts in the United States Government and international 
partners to protect our democratic processes.
    The threat of foreign interference in our democratic process 
through the weaponization of the information space requires a whole-of-
society response. The FBI's efforts are focused on identifying, and 
when possible and appropriate, exposing covert foreign sponsorship of 
disinformation, propaganda, and broader influence operations.

          1b. Has the President committed additional resources to the 
        FBI's efforts to investigate and prevent Russian interference 
        in U.S. elections? If yes, please describe how the FBI is 
        utilizing those resources to confront future interference in 
        U.S. elections.

    Answer. In fiscal year 2018, the FBI created a Foreign Influence 
Task Force to investigate efforts by foreign actors to influence 
threats to the electoral process. Intelligence gleaned from Task Force 
efforts are shared with Intelligence Community partners.

    Question 2. The fiscal year 2018 omnibus funds the Criminal Justice 
Services at $540 million. The Criminal Justice Services unit houses the 
Criminal Justice Information Services (CJIS) Division whose mission is 
to ``equip law enforcement, national security, and intelligence 
community partners with the criminal justice information they need to 
protect the U.S. while preserving civil liberties.'' CJIS operates the 
Next Generation Identification (NGI) which has processed approximately 
76 million fingerprints each year in the past 2 years; the National 
Instant Criminal Background Check System (NICS) which allows Federal 
Firearm Licensees (FFLs) to conduct instant criminal background 
searches on firearm sales and the Uniform Crime Reporting (UCR) program 
which provides statistical compilations of crimes such as murder, 
forcible rape, robbery, aggravated assault, burglary, larceny-theft, 
motor vehicle theft, and arson; officers killed and assaulted in the 
line of duty; and hate crime statistics.
    The FBI's fiscal year 2019 budget proposes $503.364 million dollars 
for CJIS which represents a $36.636 million cut.
    The FBI has stated in its fiscal year 2019 budget justification 
that it plans to reform the UCR to ensure a national standard for 
reporting crime.

          2a. The FBI created a New UCR Project with the goal to 
        ``improve the accuracy and timeliness of the crime data 
        collection and delivery process'' and to have NIBRS become the 
        national standard for crime reporting by January 1, 2021. How 
        will the FBI accomplish this goal with these budget cuts?

    Answer. In January 2018, the Federal Bureau of Investigation (FBI) 
surged subject matter experts with established skill sets to define a 
way forward to transition agencies reporting crime via the Summary 
Reporting System to the NIBRS. For agency planning purposes, 2018 is 
considered a pivotal year for the NIBRS transition. The FBI is 
executing critical engagement activities in the areas of (1) NIBRS 
transition data, (2) stakeholder engagement, and (3) marketing. The 
submission of crime data to the FBI is voluntary and agencies' 
transitions to NIBRS are affected by many variables outside of the 
FBI's direct control. The FBI is encouraging agencies to take these 
steps, which should result in the progression toward a national NIBRS 
transition. Specific strategies currently being executed by the FBI 
include:

  --Monitoring the overall progress of the transition on an agency 
        level.
  --Engagement with State and Federal Uniform Crime Reporting (UCR) 
        Program administrators.
  --Engagement with law enforcement associations and other 
        representative groups, to include, but not limited to:

    --Criminal Justice Information Services (CJIS) Advisory Policy 
            Board (APB),
    --International Association of Chiefs of Police,
    --Major Cities Chiefs Association,
    --National Sheriffs' Association, and
    --Major County Sheriffs of America.

  --Leveraging FBI Field Offices to promote the importance of the 
        transition to NIBRS with partner agencies in their areas of 
        responsibility.
  --Partnering with the Department of Justice, Bureau of Justice 
        Statistics to increase NIBRS participation by offering funding 
        assistance through the National Crime Statistics Exchange 
        initiative.
  --Development of preeminent UCR and NIBRS Web sites with 
        comprehensive NIBRS transition resources.

    In the fall of 2017, the FBI assembled a task force, comprised of 
FBI personnel and local, State, Tribal, and academia representatives, 
to address crime-reporting timeliness and provide recommendations on 
how to obtain and release data in a timelier manner. The recommended 
changes allow for the most frequent updates of crime data to be 
released.
    On June 30, 2017, the FBI deployed the Crime Data Explorer (CDE), 
an additional part of the FBI's effort to modernize the publication of 
national crime data. CDE allows the public to view and interact with 
FBI data, providing users with the ability to query, view, and download 
crime- reporting data submitted to the FBI.
    In June 2018, the FBI deployed the Uniform Crime Reporting-
Technical Refresh (UCR-TR), allowing for enhancements in the processing 
of crime data. UCR-TR is a centralized, searchable data repository of 
the FBI. One major enhancement the UCR-TR provides is the automation of 
data processing, which until the system's deployment was manually 
conducted by the FBI. The following are some of the functions UCR-TR 
provides:

  --Supports new and legacy data submitted through NIBRS, Summary 
        Reporting, Law Enforcement Officers Killed and Assaulted 
        (LEOKA), and Hate Crime, automating manual data quality 
        processes.
  --Establishes interoperability by providing the capability to receive 
        data submission in a modern data specification (i.e. extensible 
        markup language [XML]).
  --Provides an internal web-based interface for FBI users to access 
        data to improve service to UCR data contributors.
  --Supports an external web-based portal, the CDE, to provide data 
        dissemination to law enforcement agencies and the public to 
        allow for electronic publishing on a more frequent schedule.

    The deployment of the CDE combined with the NIBRS transition, UCR-
TR, and the cessation of the data embargo policy will improve the 
accuracy and timeliness of the collection and release of crime data.

          2b. In 2015, then Director Comey said that it was 
        `unacceptable' that the Guardian newspaper had better data on 
        police violence than the FBI did. Do you also agree that this 
        is unacceptable?

    Answer. High profile events involving the law enforcement community 
and public highlighted the need for better crime data. In order to 
address this need, the FBI established the National Use-of-Force (UoF) 
Data Collection at the behest of local, State, Tribal, and Federal 
partners and major law enforcement agencies. The National UoF Data 
Collection is a voluntary collection in which local, State, Tribal, and 
Federal agencies provide the FBI with information on incidents of use-
of-force. The goal of the data collection is not to offer insight into 
single use-of-force incidents, but to provide an aggregate view of the 
incidents reported and the circumstances, subjects, and officers 
involved.

          2c. Do I have your commitment that the new NIBRS metric will 
        include data on the use of excessive force by police officers?

    Answer. The FBI is committed to implementing the National UoF Data 
Collection. While this collection is a separate collection from the 
NIBRS, both collections reside within the FBI's UCR Program. The 
National UoF Data Collection will include any use-of-force which 
results in the death or serious bodily injury of a person, as well as 
when a law enforcement officer discharges a firearm at or in the 
direction of a person. The definition of serious bodily injury will be 
based, in part, upon Title 18, United States Code, Section 2246 (4). 
The term ``serious bodily injury'' means ``bodily injury that involves 
a substantial risk of death, unconsciousness, protracted and obvious 
disfigurement, or protracted loss or impairment of the function of a 
bodily member, organ, or mental faculty.''
    The FBI is working with the Office of Management and Budget on the 
release of this national collection.

    Question 3. An analysis by FiveThirtyEight, revealed that ``the 
2016 Crime in the United States report--the first released under 
President Trump's administration--contains close to 70 percent fewer 
data tables than the 2015 version did.'' Four of my colleagues and I 
sent a letter to you and AG Sessions asking you to restore this data 
and I am pleased that the missing data sets have been restored. 
However, I remain concerned. The FBI's response indicates that you 
performed an analysis of web traffic data and eliminated the data sets 
that were not frequently trafficked and thus reduced publicly available 
data from 81 to 29 tables. Policymakers, criminologists, researchers 
and the public rely on this objective data to analyze crime trends.

          3a. What prompted the FBI to conduct this web traffic review? 
        Is this the first time such a review has been conducted 
        regarding crime data sets?

    Answer. In an effort to move to a digital presentation of data, FBI 
staff performed web traffic analysis on tables viewed in previous Crime 
in the United States (CIUS) reports. This was the first time the FBI 
had conducted such an analysis. Many of the eliminated tables were 
different views of the same data set. Based on user feedback, the FBI 
published all 74 tables as downloadable Excel files on FBI.gov. These 
files were made available to the public on April 19, 2018.

          3b. Do I have your commitment that you will retain all data 
        sets going forward to ensure transparency?

    Answer. The Crime Data Explorer (CDE) is part of the FBI's broader 
effort to modernize the reporting of national crime data. CDE is a web-
based solution enabling the public to view and interact with the FBI 
data in an intuitive and user-friendly way. The FBI plans to leverage 
the CDE to transition from a table driven publication to a more 
accessible view of the data. CDE users can view trends, download bulk 
datasets, and access an open application-programming interface, which 
allows users to create custom views and conduct their own analysis of 
the data reported to the FBI.
    A marketing strategy will be implemented to ensure the public is 
aware of how to access the data.

                          SUBCOMMITTEE RECESS

    Senator Moran. The subcommittee now stands in recess. We 
will reconvene in a closed and classified session to hear 
Director Wray in SVC-217.
    I intend to call that meeting to order shortly after the 
beginning of the second vote now occurring in the United States 
Senate. Thank you.
    [Whereupon, at 3:36 p.m., Wednesday, May 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
